<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                         WEDNESDAY, MAY 3, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:34 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ACTING EXECUTIVE 
            DIRECTOR
ACCOMPANIED BY:
        SUSAN ROBFOGEL, CHAIRWOMAN, BOARD OF DIRECTORS
        PETER EVELETH, GENERAL COUNSEL
        ALMA CANDELARIA, DEPUTY EXECUTIVE DIRECTOR
        BETH HUGHES BROWN, BUDGET AND FINANCE OFFICER

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order.
    Good morning. This morning we meet to take testimony from 
three legislative branch agencies: the Office of Compliance, 
the Government Printing Office (GPO), and the Congressional 
Budget Office (CBO). Each agency will appear as a separate 
panel. I would like to welcome all of our witnesses this 
morning.
    I will hear first from Ms. Tamara Chrisler, Acting 
Executive Director of the Office of Compliance, accompanied by 
Ms. Susan Robfogel, Chair of the Board of the Office of 
Compliance, and Pete Eveleth as General Counsel.
    The Office of Compliance is requesting $3.4 million, an 
increase of roughly 11 percent over the current budget, and 
would fund three additional employees. The Office's budget is 
small in view of its responsibilities. I plan to focus most of 
my questions on the recent revelations concerning the health 
and safety of the utility tunnels.
    Ms. Chrisler, you may proceed with your testimony.
    Ms. Chrisler. Thank you, Mr. Chairman. Good morning.

                SUMMARY STATEMENT OF TAMARA E. CHRISLER

    Senator Allard. Good morning.
    Ms. Chrisler. As you mentioned, Chairwoman Robfogel and 
General Counsel Pete Eveleth are with me this morning. Also 
joining us from the Office of Compliance are Alma Candelaria, 
Deputy Executive Director, and Beth Hughes Brown, our Budget 
and Finance Officer.
    And let me take a moment on behalf of the Office of 
Compliance and thank you for the opportunity to present to you 
this morning in support of our fiscal 2007 budget request. 
Chair Robfogel and I have submitted for the record written 
statements, and we appreciate the opportunity to be able to 
appear before you this morning and just highlight some of the 
items that we believe to be of significant importance in our 
budget request.
    As you know, in fiscal year 2006, the Office of Compliance 
submitted to you a zero-based budget request. And we thank the 
chairman, we thank the subcommittee, for support in that budget 
request. Because of your support, the Office was able to carry 
out its mission, as well as improve its inspection program, 
which is of great significance.
    Again, in fiscal year 2007, the Office of Compliance is 
presenting a zero-based budget request. And the request is 
designed to assist the Office in ensuring that Congress is a 
model employer, that the legislative branch is a model 
workplace and a safe working environment. And we are asking 
your support in supporting our budget request so that we can 
meet those goals.
    Specifically, the Office of Compliance is requesting 
additional funding to further a GAO recommended baseline 
survey. This survey will allow us to gather data so that we 
know what the employees and the employers in the legislative 
community know about their rights, their responsibilities, the 
CAA, as well as the Office of Compliance. This information will 
allow the Office to engage in best practices, so that we may 
measure our performance and so that we may focus our efforts on 
education and outreach to the areas that are needed.
    If we focus our efforts and provide assistance and 
resources where the need is, then we will be able to ensure 
that offices become self-sufficient and enable offices to know 
where potential violations are themselves, correcting them 
themselves, to assure a safe and healthy working environment. 
This type of proactive approach will, in the long run, save 
money. And Senator, it will save lives.

                      NEW FTE POSITIONS REQUESTED

    In addition, the Office of Compliance is requesting 
additional funding for three additional full-time equivalent 
(FTE) positions, one being for a program manager-type position 
to assist with dedicated service to the Office's programs and 
projects, another for the accounts payable function of the 
office, and the other for a management analyst position for the 
General Counsel's Office.
    Now significantly, the management analyst position will 
allow the inspectors to go about the business of inspecting, 
which is where their skills are and where their knowledge is. 
Currently, the inspectors inspect facilities. They return to 
the Office. They input data. They record data. They track data, 
which is taking away from where the inspectors are really 
needed, out in the field, inspecting the facilities, monitoring 
progress and abatement. And we request your support in the 
request for this additional management analyst position in the 
General Counsel's Office.
    I would like to note, Mr. Chairman, that two of the three 
positions that we are requesting can and will be funded by the 
Office of Compliance through reprogramming of contract money. 
So although we are requesting three FTE positions, we are in 
the position to find two of those ourselves.
    Last, but equally as significant as the other items that I 
have mentioned, is the Office's request for additional funding 
to inspect the Capitol Visitor Center. Because the center is 
anticipated to be completed and opened in the near future, this 
area will increase the Office of Compliance's responsibility by 
0.7 million square feet. And because the Office is committed to 
ensuring that this area, as well as the rest of the campus, is 
safe and healthy and compliant, we are requesting your 
assistance in ensuring that funding allows us to do this.

                           PREPARED STATEMENT

    Again, Mr. Chairman, these are just but a few items in our 
budget request that I wanted to highlight and bring to your 
attention this morning. I thank you for the opportunity to be 
able to present to you. At this time, I would ask that Chair 
Robfogel be allowed a few minutes to address the subcommittee. 
And Chair Robfogel, General Counsel Eveleth, and myself will 
remain available to answer any questions that you have.
    [The statement follows:]

                Prepared Statement of Tamara E. Chrisler

    Thank you, Mr. Chairman and Members of the Committee, for the 
opportunity to appear before you today in support of the fiscal year 
2007 budget request of the Office of Compliance.
    Board Chair Susan Robfogel is in attendance with me today to 
express the support of the Board of Directors for the Office's fiscal 
year 2007 budget request. Also with me today are General Counsel Peter 
Ames Eveleth, Deputy Executive Director Alma Candelaria, and 
Administrative and Budget Officer, Beth Hughes Brown.
    We present you again this year a completely zero based budget. We 
hope that the transparency of the zero based format assists the 
Committee in understanding from the ground up how the Office operates 
its mandated programs in employment dispute resolution, in Occupational 
Safety and Health and ADA public access inspections and enforcement, 
and in education and outreach programs. This year, we have requested a 
total of approximately $300,000 in additional funding.
    2005 marked the 10th anniversary of the passage of the 
Congressional Accountability Act of 1995. As we begin this agency's 
second decade, we can look back at much progress, and some rough 
patches along the way. In February, 2004, the Government Accountability 
Office issued its major Report ``Office of Compliance: Status of 
Management Control Efforts to Improve Effectiveness'' GAO-04-400. At 
approximately the same time, the Office issued its first comprehensive 
Strategic Plan for fiscal years 2004-2006. Both of these documents, and 
our strides in implementing them since 2004, reflect the continuing 
improvement in the Office's focus on its core missions, and its growing 
engagement with Congress and legislative branch agencies in 
collaborative initiatives to enhance our services in the mandated areas 
of dispute resolution, safety and health enforcement, and education and 
outreach to our regulated community.
    Recently, the Office formally adopted interim performance measures 
for fiscal year 2006, after extensive stakeholder consultations--
including with the staff of this Committee. Such performance measures 
represent another step toward the best practices in strategic planning 
and management controls which GAO challenged this Office to achieve. We 
are now also fully engaged in two other strategic initiatives: the 
preparation of our next Strategic Plan, which will guide the Office in 
fiscal year 2007 and beyond; and a complete Human Capital Review, which 
is intended to result in a position classification, pay banding, and 
possible pay for performance structure for the Office. The Office's 
budget request is designed to further the goals of our strategic plan.
    As recommended in the GAO Report and reflected in our Strategic 
Plan, we continue to shift our focus in providing all our services to a 
more interactive approach, enabling regulated employers to achieve 
greater voluntary compliance with the varied requirements of the 
Congressional Accountability Act. Legislative branch agencies are faced 
with many employment, security and safety challenges. Our primary 
mission is to advance safety, health and workplace rights for employees 
and employers of the legislative branch, as mandated by the Act. We 
strive toward that goal with just 17 full time equivalent (FTE) 
positions and a current budget of about $3.1 million.
    As this agency continues to implement the recommendations of the 
GAO Report, and the goals and performance measures of our Strategic 
Plan, we meet new operational challenges as we become better at what we 
do. We have carefully prioritized our needs, and limited our requested 
enhancements to meet only those challenges which handicap our ability 
to make broader progress at this point in our development. This 
morning, I will highlight a few of those requests.

                           DISPUTE RESOLUTION

    The Office's day-to-day employment dispute resolution function 
involves controversies under ten different laws, everything from 
alleged discrimination to the alleged failure to pay required overtime. 
This dispute resolution activity remains largely unnoticed because of 
the confidential nature of the counseling, mediation and hearing 
processes conducted by the Office. Hundreds of disputes in nearly all 
legislative branch agencies, as well as in offices of Members and 
committees of both chambers have quietly been addressed through the 
administrative dispute resolution system since 1995. The assistance to 
employing offices and employees provided by this discreet service is 
perhaps one of the great untold success stories of the past decade 
regarding our contribution to the quality of Congress's internal 
operations.
    We are, however, operating with an employment dispute resolution 
electronic case tracking system which was installed at the agency's 
inception in 1996. This antiquated system (which is entirely different 
from the Occupational Safety and Health inspection tracking system 
which this Committee authorized last year) is very hard to use, and is 
no longer compatible with our other operating systems. We have explored 
whether it would be cost effective to upgrade this system, and have 
been told by experts that it is cheaper to replace it. We are 
requesting funds to implement that recommendation.

                     SAFETY AND HEALTH ENFORCEMENT

    GAO's 2004 Report found that ``In contrast to most other CAA 
requirements, OOC is not fully in compliance with the CAA requirement 
that it `conduct periodic inspections of all facilities' of the 
agencies covered by the provision.'' GAO also found a ``dramatic 
increase'' in the number of health and safety inspections requested by 
employing offices and covered employees, and observed that the Office's 
resources ``have not kept pace with this growth.'' We thank this 
Committee for its positive response to GAO's finding.
    For the current fiscal year, the Office received a significant 
increase in OSH inspection and enforcement funding to enable us for the 
first time to substantially comply with the Act's mandate that this 
agency complete a comprehensive safety and health inspection of the 
entire Capitol Hill campus during each Congress. The Office is now well 
along in this definitive effort to establish the required authoritative 
and comprehensive OSH base line for all 17 million square feet of 
covered space in the D.C. metro area. General Counsel Eveleth and I are 
pleased to report to you that as of today, the agency is on track to 
complete that biennial inspection by the end of the 109th Congress. 
Inspection of 100 percent of the campus is one of our recently adopted 
performance measures. Thanks to you, we are better able to help the 
Capitol Hill campus become safer and healthier much faster than 
otherwise would have been possible.
    As the Office gains experience with this much more intense and 
efficient inspection regimen, it has become clear that the ``down 
time'' our inspectors are currently spending back in the office doing 
administrative tasks can be more cheaply and efficiently performed by a 
lower cost management analyst, thus freeing up the inspectors to spend 
more time in the field. We expect that the cost of this FTE will be 
substantially offset by increased efficiencies in the use of inspector 
time, and we plan to reprogram contractor funds to fund the salary of 
this position. As several of our performance measures relate to 
increased inspection efficiencies, we have requested that you approve 
an additional position for this purpose.
    The impact of the opening of the Capitol Visitor Center during 
fiscal year 2007 will add approximately 0.7 million square feet to our 
inspection load. Thus, we are seeking funding for that added activity.

                       EDUCATING OUR CONSTITUENCY

    The Office is mandated by Congress to ``carry out a program of 
education for Members of Congress and other employing authorities of 
the legislative branch of the Federal Government respecting the laws 
made applicable to them and a program to inform individuals of their 
rights under laws made applicable to the legislative branch of the 
Federal Government. . . .'' 2 U.S.C. 1381(h)(1). While the Office 
continues to carry out this core mandate of the Act through various 
educational and outreach activities, we have maximized our limited 
capacity in this area.
    A key obstacle to greater educational effectiveness is our lack of 
comprehensive data regarding how and where we need to focus our 
efforts. A primary agency performance measurement tool recommended in 
the GAO Report is the establishment of a knowledge baseline regarding 
the Congressional community's understanding of the Act and of the 
Office's role in enforcing it. Such a baseline can best be established 
through a survey. The survey data will help us better target our 
education efforts and measure results. We are seeking funding for the 
undertaking of survey activities to establish the baseline against 
which we will measure our success in achieving our statutory mandates.

                           MANAGEMENT SUPPORT

    The Office of Compliance makes extensive use of service vendors and 
personal services contractors to provide many of our vital functions, 
including employment dispute resolution and OSH inspections. In 
general, this practice provides significant cost savings and allows 
this small agency to maintain capacities on an ``as-needed'' basis. 
However, some core internal control functions are currently also under-
served or contracted out due to our limited FTE authorization, which at 
17 is two less than the agency was authorized in fiscal year 1998.
    The Office has just two FTE's dedicated to all IT, HR, general 
administrative support and fiscal management functions. This situation 
has resulted in inefficiencies, work load overages, and the necessity 
to contract out core functions, such as accounts payable. Accounting 
staff is necessary to ensure that a separation of functions can be 
maintained in our fiscal management. We are requesting one analyst FTE 
to address our HR and program analyst deficit, and an accounting 
technician FTE to bring our basic accounting and other fiscal 
responsibilities on staff. The cost of these FTE's will be partially 
offset by a reduction in contractor expenses.

                               CONCLUSION

    There are a number of other requests in our budget submission which 
we commend for your consideration. On behalf of the Board of Directors, 
the appointees and the entire staff of the Office of Compliance, I 
again thank you for the Committee's support of the efforts of this 
agency; I recommit to you that we are dedicated to using every dollar 
of taxpayer money carefully and efficiently; and I respectfully request 
that the Committee respond favorably to the Office's fiscal year 2007 
budget request. We will be happy to respond to any questions which you 
may have.

                  APPENDIX--THE CONGRESSIONAL MANDATE

    The Office of Compliance was established to administer and enforce 
the Congressional Accountability Act of 1995, 2 U.S.C. 1301, et seq. 
The Congressional Accountability Act applies 12 workplace, employment, 
and safety laws to Congress and other agencies and Instrumentalities of 
the legislative branch. These laws include: the Occupational Safety and 
Health Act of 1970; the Federal Service Labor Management Relations Act; 
Title VII of the Civil Rights Act of 1964; the Americans with 
Disabilities Act; the Rehabilitation Act of 1970; the Family Medical 
Leave Act; the Fair Labor Standards Act; the Age Discrimination in 
Employment Act; the Worker Adjustment and Retraining Notification Act; 
the Employee Polygraph Protection Act; and veteran's employment and 
reemployment rights at Chapter 43 of Title 38 of the U.S. Code. The Act 
was amended in 1998 to apply the Veterans Employment Opportunities Act.
    Currently, the Office has regulatory responsibility for employers 
in the legislative branch employing approximately 30,500 employees. The 
Office is also charged by the Act to make recommendations to Congress 
as to whether additional employment and public services and 
accommodations laws should be made applicable to the employing offices 
within the legislative branch.
    Under the direction of the Executive Director, the Office 
administers a dispute resolution system to resolve disputes and 
complaints arising under the Act, and carries out an education and 
training program for the regulated community on the rights and 
responsibilities under the Act. The General Counsel has independent 
investigatory and enforcement authority with respect to certain of the 
laws administered under the Act and represents the Office in all 
judicial proceedings under the Act.

                    THE BOARD OF DIRECTORS AND STAFF

    The Office has a five-member, non-partisan Board of Directors 
appointed by the Majority and Minority Leaders of both houses of 
Congress. The Board appoints the executive leadership of the agency, 
acts as an adjudicative body in reviewing appeals by parties aggrieved 
by decisions of Hearing Officers on complaints filed with the Office, 
and advises Congress on needed changes and amendments to the Act. The 
Board members, who serve five-year terms, come from across the United 
States, and are chosen for their expertise in the laws administered 
under the Act. In a major vote of confidence in the current leadership 
of the Office, Congress enacted legislation in 2004 and in 2005 
granting authority to the bipartisan Congressional leadership to 
appoint the current chair and members of the Board to a second 5 year 
term in office, and to the Board to appoint the executive leadership of 
the Office to second five year terms.
    The Office of Compliance currently has 17 full-time employees and 
pays the part-time Board members on a ``when-actually-employed'' basis. 
Our staff performs a multiplicity of functions, including: 
administrative dispute resolution, occupational safety and health and 
disability access enforcement, labor relations regulatory activity, 
education, Congressional relations, professional support for the Board 
of Directors, and general administrative and fiscal functions. The 
Office performs the functions of multiple agencies in and for the 
Executive Branch, including but not limited to, the Equal Employment 
Opportunity Commission, Occupational Safety and Health Administration, 
Occupational Safety and Health Review Commission, and the Federal Labor 
Relations Authority. The Office regularly contracts for the part-time, 
as-needed services of approximately 30 other individuals as mediators, 
Hearing Officers, and safety and health investigators. The Office's 
senior full-time safety and health investigator is on permanent detail 
from the Department of Labor's Occupational Safety and Health 
Administration.

                      BIENNIAL OSH-ADA INSPECTION

    In the fiscal year 2006 budget, Congress provided substantial 
additional funding to permit the Office of the General Counsel to meet 
the statutory Occupational Safety and Health mandate to examine all 
legislative branch facilities during the 109th Congress biennial cycle 
of inspections. The total amount of covered premises in the 
metropolitan Washington region is in excess of 17 million square feet. 
The Office is intensely engaged in the implementation of the biennial 
inspection regimen, and continues to carry out the GAO recommendation 
that the inspection program include interactive and collegial 
involvement on the part of the affected agencies.
    As part of the revamped inspection regimen, the Office is now 
utilizing a recently installed electronic tracking and report system 
for OSH inspections and enforcement, and has adopted a widely 
recognized risk assessment code (RAC) to classify all hazards found to 
exist in the ongoing inspections.

                   MORE CONSULTATION AND COLLEGIALITY

    GAO also recommended that ``OOC should establish congressional and 
agency protocols . . . between the Congress, legislative branch 
agencies, and OOC on what can be expected as OOC carries out its 
work.'' (GAO Report, Introduction) The Office of Compliance continues 
to develop new approaches to OSH and other regulatory activities which 
involve greater consultation, coordination, and transparency in dispute 
resolution, and in investigatory and enforcement activity. This effort 
is time intensive and requires partnerships with employing offices and 
employees and a concomitant educational and training initiative to 
improve management and employee understanding of best practices. These 
activities are focused on fostering more cooperative efforts at 
achieving compliance with standards but they do not negate the 
statutory mandate to enforce the law.

                      STRAINS ON AGENCY RESOURCES

    In last year's budget request, this Office highlighted the drastic 
under-resourcing of the agency's OSH inspection and enforcement 
responsibility. We thank the Committee for its leadership in 
significantly improving the level of resources we are able to employ in 
meeting the OSH challenge.
    In this budget, the problems are less evident to outside 
stakeholders, but no less urgent with regard to the Office's ability to 
carry out its mission. We are requesting three FTE's to address chronic 
major shortfalls in our administrative support capabilities in IT and 
equipment maintenance, fiscal controls; and to address the emerging 
need for more administrative support for the much larger OSH inspection 
activities. The Office of Compliance continues to operate with three 
fewer FTE's than it was provided when the agency began operations in 
1996. However, our responsibilities and statutory missions have not 
diminished. We respectfully submit that restoration of three FTE's will 
greatly assist the Office in continuing to address the recommendations 
of the 2004 GAO Report, and better serving our customer community.
    We are also asking for funds to better focus our education and 
outreach efforts, and a number of other inexpensive enhancements to 
many of our program efforts which nevertheless provide significant 
added value to the quality of workplace life on Capitol Hill.

    Senator Allard. Ms. Robfogel.

                  SUMMARY STATEMENT OF SUSAN ROBFOGEL

    Ms. Robfogel. I will emphasize only one point because I 
know there are, as you say, there are many questions that you 
have with respect to some of the safety violations that have 
been discussed so extensively in the last few weeks.
    I wanted to take this opportunity to thank you for the 
support that you provided to the Office during the 2006 year. 
As a result of the increased funding that we received last 
year, the Office has been able to engage in a much rigorous 
inspection of the entire congressional campus. And although we 
are only 63 percent completed with respect to our inspection 
with the 109th Congress, we have already identified 10,000 
safety violations.

                           PREPARED STATEMENT

    What our emphasis needs to be as we go forward is to be 
sure that we have the funding to deal with abatement and 
enforcement and to help the various constituents who are part 
of the congressional campus to keep their building safe, and to 
learn how to recognize safety violations when they see them.
    We want to keep doing the job that we are trying to do, to 
keep people who work on the Hill safe and to keep visitors who 
come to the Hill safe. You have gone a long ways toward helping 
us do our job. We need a little bit more support going forward.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Susan Robfogel

    Good morning, Mr. Chairman and members of the Committee. I 
am Susan Robfogel. As Chair of the Board of Directors of the 
Office of Compliance, I am honored to be here today to join 
Tamara Chrisler in testifying on the Office's fiscal year 2007 
budget request. I want to take this opportunity to express my 
appreciation and that of the rest of the Board for the 
increased funding appropriated to the Office of Compliance in 
fiscal year 2006 for purposes of completing a comprehensive 
safety and health biennial inspection. I can assure you that 
the Office is on track with this vital effort.
    Mr. Chairman, the Board would like to commend the work of 
the entire staff in achieving so many goals in the past few 
years. We now have a Strategic Plan with a performance line of 
sight to individual work plans; we have established or are 
developing protocols to enable us better to partner with the 
agencies for which we have employment law and safety and health 
jurisdiction; and we have worked with this Committee, and GAO 
to improve and systematize our business practices in budget, 
performance measures, and strategic planning.
    This record of improvement is the result of the hard work 
and dedication of the four statutory officers who are appointed 
by the Board, and the dedicated staff they have assembled. 
While the Board wholeheartedly supports all of the budget 
requests, we wish to underscore the need which the agency has 
to increase its FTE complement to 20. Right now the FTE 
complement of 17 is two less than the 19 the Office was 
afforded in fiscal year 1998. Over the past several years, the 
agency has concentrated its available resources on enhancing 
its service delivery, particularly in the OSH area. 
Consequently, there is a compelling need for basic operational 
support staff. I can assure you that the Office of Compliance 
will continue to make the most efficient use of every dollar 
which is appropriated by this Committee.
    We are available to address any questions.

    Senator Allard. Thank you for your testimony.
    I would like to follow up on your request. You have 
requested an 11-percent increase over the current year. You 
gave us some brief explanation. I would like to go over and 
make sure I understand that.
    Ms. Chrisler. Yes.
    Senator Allard. Those increases are in the area of three 
additional full-time employees. It looks to be pretty much on 
the management side, a program manager, an accounts payable 
technician, and then a management analyst. Is that correct?
    Ms. Chrisler. That is correct, for the General Counsel's 
Office.
    Senator Allard. And what is your priority on those? Did you 
give those in the way of priority to us?
    Ms. Chrisler. Thank you. The management analyst position is 
a significant position. And that is a very significant 
position.
    Senator Allard. Okay.
    Ms. Chrisler. The accounts payable position, what we have 
now, Senator, is a very small human resource, as well as budget 
staff, extremely small. And we are contracting some of those 
services out now, which are core functions of our office. And 
to, frankly, be more efficient and more effective in managing 
our office, that accounts payable position is significant, as 
well.
    Senator Allard. I see.
    Ms. Chrisler. The program manager-type position for our 
office would be split between managing programs, managing 
projects, as well as carrying out some of the human resource 
functions in the Office, as well. So although all three 
positions are desperately needed by the Office, we are able to 
fund two of them.
    Senator Allard. Well, I know it is difficult to set 
priorities, and that is a tough question. I respect and thank 
you for your straightforward response.
    Ms. Chrisler. Thank you, sir.
    Senator Allard. Now the Capitol Visitor Center, that is 
another reason for that increase?
    Ms. Chrisler. Yes, it is, Senator.
    Senator Allard. Okay. Now, are there any other factors that 
I did not pick up on in your testimony or maybe you did not 
have in your testimony that is contributing to the 11-percent 
increase that you are requesting?
    Ms. Chrisler. There are a number of items that we are 
requesting assistance for. The main ones are for the full-time 
equivalent positions, the baseline survey, the case tracking. 
What is significant and of main importance for us is to be able 
to maintain our progress that we have made so far. The Office 
wants to be able to sustain itself. And the Office is 
requesting assistance to be able to grow with the surrounding 
circumstances.
    There are many circumstances that are getting greater 
attention and requiring greater responsibility and greater 
inspection and management by our Office. And we are asking your 
support in general for us to be able to move with and maintain 
the progress that we have made and also continue to make 
progress, because as the campus moves and grows and as 
incidents and issues and circumstances come to the attention of 
the Office, we want to be in the position to provide the 
services and resources that are necessary.

                 BIENNIAL SAFETY AND HEALTH INSPECTIONS

    Senator Allard. How would you evaluate your biennial health 
and safety inspection of the Capitol, including the House and 
Senate facilities?
    Ms. Chrisler. The progress on that is going very well. As 
Chair Robfogel mentioned, we are 63 percent into that process. 
And along with me this morning is General Counsel Eveleth, who 
maintains overall management of that program. And I would like 
to defer to him to add additional comments to that question.
    Senator Allard. Okay.
    Mr. Eveleth. Yes, Mr. Chairman. We have made significant 
progress over the past years as a result of the additional 
funding that we received for fiscal year 2006. In our 108th 
Congress biennial inspection, we were only able to cover 25 
percent of the square footage, that is, of the approximately 16 
million-plus square footage. There will be an additional 
700,000 once the visitor center comes online. But we were only 
able to do 25 percent in the last biennial.
    At this point, as has been said, we have covered 63 
percent. And we anticipate completing the biennial inspection 
for the 109th Congress by September of this year. So that is a 
big step forward.
    Senator Allard. It is.
    Mr. Eveleth. As a result of that, we have identified, as 
was indicated, something like 10,000 violations, as opposed to 
our last inspection, where we discovered 2,600 violations. That 
number, in turn exceeded the biennial inspection for the 107th 
Congress where we identified something like 360 violations. 
That does not mean it is because things have gotten worse. It 
is just that we are doing a much more thorough baseline 
inspection.
    Senator Allard. And under those violations, have you tried 
to break them down into categories?

                    FINDINGS BY RISK ASSESSMENT CODE

    Mr. Eveleth. I can tell you, I can break it down. We have a 
system which we call a RAC system. That is a risk assessment 
code system. This is common in industry, and in other 
departments. And ours is based on the Department of Defense's 
risk assessment code system.
    It is a combination of rating each hazard during the 
inspection according to the risk of injury or illness or 
potential of death. It depends upon a combination of the 
probability that an employee could be hurt and the severity of 
the illness. The RAC's are based on that. And the most serious 
RAC rating would be a risk one, and that goes to a risk five, 
which is de minimis.
    Now we ourselves do not count risks that are de minimis. We 
just do RAC one through four. And so I can tell you----
    Senator Allard. The 10,000 only includes one through four. 
It does not include five?
    Mr. Eveleth. No. We do not even record de minimis ones.
    Senator Allard. So the 10,000 would get you the RAC one, 
two, three, and four.
    Mr. Eveleth. Right. And of the RAC's, there are 20--this is 
as of today or last week--we discovered 20 RAC ones--those are 
the most serious--1,655 RAC two's; 7,681 RAC three's; and 759 
RAC four's.
    Senator Allard. What would be an example of a RAC four?
    Mr. Eveleth. A RAC four would be such things as--let us 
see. I have some examples of that. There may be some electrical 
cord hazards, some ladder hazards, broken ladder, some fall 
protection hazards. There might be a problem with fire 
extinguishers, that they are not currently inspected. There 
might be an issue about storage shelving hazards, overloaded 
shelves or something.
    Senator Allard. I have a pretty good feel where that is.
    Mr. Eveleth. Right.
    Senator Allard. And a RAC one example would be?
    Mr. Eveleth. Well, a RAC one would be--as you know, the 
tunnels would be an example of that, where there would be 
falling concrete, where there is asbestos, and things of that 
nature. A lot of electrical issues would also be a RAC one--
where a worker could be exposed to an electrical hazard.
    Senator Allard. Bare wires or something like that.
    Mr. Eveleth. Bare wires and so forth.
    Senator Allard. Okay.
    Mr. Eveleth. And when we do the RAC's, it is not a one-
size-fits-all kind of RAC. In other words, an electrical hazard 
in one situation might be a RAC one and another might be a RAC 
four, depending on the circumstances. For example, if there 
were a wet floor or something, that would heighten the risk, if 
someone were to be shocked.

FIRST OFFICE OF COMPLIANCE COMPLAINT UNDER THE OCCUPATIONAL SAFETY AND 
                               HEALTH ACT

    Senator Allard. Now I would like to proceed to one of the 
RAC ones, the one that has the most publicity at this point in 
time. That is the complaint that you filed with the Architect 
of the Capitol regarding a condition of the Capitol complex 
utility tunnels. Now this is the first time that OOC has filed 
a complaint under the Occupational Safety and Health Act. You 
have filed other complaints, but this is the first one under 
that act.
    Mr. Eveleth. That is correct.
    Senator Allard. Why did the OOC believe it necessary to 
file a complaint?
    Mr. Eveleth. Well, my predecessor, as you know, issued a 
citation back in the year 2000. And when I came on board in 
2003, my intent was to determine which were the most hazardous 
areas. And the first areas that we began to look at were areas 
that had not been inspected at all in the past. And I wanted to 
be sure what was going on there.
    And in 2005, we began, when we had additional resources 
that we did not have before, we began our inspection of the 
Capitol Power Plant tunnels and the Capitol Power Plant itself, 
because that was an area where a citation had been issued 
previously. And what we discovered in the course of that, that 
while some work had been done, in effect very little work had 
been done. That is to say, in 2000 a contractor that had been 
inspecting the tunnels under the engagement of the Architect of 
the Capitol--that contractor identified areas within the 
tunnels that needed to be fixed within 1 year, immediate 
attention, as well as other ones that had to be done within 5 
years.
    What we discovered in our inspection was--and they were 
also required to monitor the progress of those things, because 
they continued to deteriorate. Those tunnels are very hot. They 
go up to 130 degrees, some of the tunnels, and they are also 
damp. And that combination causes rust. And the rust in the 
rebar that is under the cement, it expands as a result of 
rusting. And whole sections can and have delaminated. That is, 
they have fallen down. And smaller areas have spalled. So that 
is a very serious situation. And the contractor said, ``You 
need to do these things within a certain period of time.''
    Senator Allard. Is that what the original contractor said 
in 2000?
    Mr. Eveleth. That is what the original contractor said, 
right, back in 2000. Our citation back in 2000 basically 
tracked what that contractor had found and said to fix these 
issues. Continue to monitor, fix the safety communication 
system so that people within the tunnels can notify the people 
outside the tunnels, if they have to get out, if there is an 
emergency, and also to assure that there were sufficient number 
of egress points so they could be rescued in the event of a 
collapse or injury or what have you.
    And when we went through the tunnels in June 2005, we 
discovered that the communications system, although it had 
initially been improved, was not working properly. And not all 
the areas were covered by the communications system.
    A number of the egress points had been welded shut during 
past years. And there were not--there was an insufficient 
number of egress points. And finally, they had not completed 
the repairs or made any attempt to do the repairs in most of 
the areas that had been identified by the contractor.
    We met with the Architect of the Capitol, as we do monthly, 
that is to say, representatives of the Architect of the Capitol 
and described the problem. They gave us a tentative mitigation 
plan, which we examined. And we reached the conclusion--and I 
told the Architect about this as well--we reached the 
conclusion that it was insufficient. And it was insufficient in 
at least two respects.
    In one respect, it was insufficient because insufficient 
monies were going to be reprogrammed or were going to be asked 
for in this fiscal year. I think less than $4 million was being 
requested. Whereas the contractor back in 2000 had said it will 
be at least $13 million in order to just do the concrete, to 
prevent the spalling of the concrete and things like that. So 
we knew that an insufficient amount was being requested. And 
therefore, it would not be possible to do all the repairs 
within short order.
    And the other aspect of it that was of most concern to us 
was that there were no intermediate measures that were being 
undertaken or proposed by the Architect until the full repairs 
could be made. And there was no suggestion about putting in 
netting or any other kinds of things that might be able to be 
done to protect the workers.
    And because of that, we decided that it was necessary to 
file a complaint.
    Senator Allard. Okay.
    Mr. Eveleth. I am sorry if that is an overlong answer.
    Senator Allard. No, we needed that detail. Thank you.
    The question, then, is what kind of follow up do you have? 
This has gone on for 6 years now.
    Mr. Eveleth. Right.
    Senator Allard. Well, 5\1/2\ years. I have been an 
inspector myself, and I always would say I will be back in 1 
month and see how you are doing. Why was there not that kind of 
follow up?
    Mr. Eveleth. I cannot answer that entirely, because I was 
not on duty at that time. But what I can tell you is that under 
the citation, the Architect was supposed to have completed the 
repairs during the following fiscal year.
    Senator Allard. So we were just taking the word of the 
Architect that the work had been done?
    Mr. Eveleth. No, no, sir, no. I am saying that they had a 
couple of years in order to do the work.
    Senator Allard. Yes.
    Mr. Eveleth. And then we would go back and see whether they 
had done the work.
    Senator Allard. I see.
    Mr. Eveleth. There was not a continuing reporting process. 
That is number one.
    Two, we did not have the resources, frankly, to do all the 
inspections and to follow up on all these things until--as I 
say, when I got on duty, my primary interest was to look at 
those violations and citations that looked the most serious and 
those that had not been inspected at all. And so I turned to 
that.
    Now should we have done more? Absolutely we should have 
done more. And now we are in a position to do more. And that is 
what our whole intention is to do by this RACS system, is to be 
able to identify those violations that are the most serious in 
terms of likelihood of occurrence and likelihood of injury to 
people. And that is going to be our emphasis.
    Senator Allard. And do you have a system of tracking these 
violations now within the Office of Compliance?
    Mr. Eveleth. We do now.
    Senator Allard. When did you put that into effect?
    Mr. Eveleth. Pardon me?
    Senator Allard. When did you put that into effect?
    Mr. Eveleth. We asked for that, I believe it was, for our 
fiscal year 2005 budget. And then we have been in the process 
ever since of loading into that tracking system not only our 
current inspections--that is, when the inspectors go out, they 
come back to the Office, they load it into our system, and it 
says exactly where the violation is, the RAC number, what code 
section is being violated, and when the employing office or the 
Architect will abate it. And then we analyze that data, and we 
will go back as soon as we have the information from them and 
tell them, yes, we think that is appropriate or no, you have to 
speed that process up.
    But thank goodness for that appropriation, because when you 
are talking about 10,000 violations, plus what we have found in 
earlier years, it is impossible to keep track of it without 
some kind of a solid database.
    Senator Allard. You do. And you have to prioritize.
    Mr. Eveleth. Right.
    Senator Allard. As an inspector, if I found a serious 
violation, I would say I will be back in 2 weeks or I will be 
back in 30 days----
    Mr. Eveleth. Right.
    Senator Allard [continuing]. To follow up on things. If it 
was less serious, I would say, well, I will pick it up in a 
couple of months and see how you are doing.
    Mr. Eveleth. Right.
    Senator Allard. So it seems to me that if it is a RAC one, 
it needs to be followed up a little more closely than if it is 
some other less serious violation.
    Mr. Eveleth. Absolutely. And what we do, when our 
inspectors go in and they see a RAC one situation, they 
immediately issue a notice of serious deficiency and tell them 
to fix it. And we follow up on all those RAC ones right away.
    Senator Allard. Okay.
    Mr. Eveleth. Now obviously if you have a situation like the 
tunnels, that is not something that can be fixed like that.
    Senator Allard. No. I understand that.
    Mr. Eveleth. Right.
    Senator Allard. We are doing our best to respond to that, 
by the way, if you noticed.
    Mr. Eveleth. Right. And we greatly appreciate that.
    Senator Allard. Yes.
    Mr. Eveleth. That is critical.

      COMPLAINT AGAINST ARCHITECT OF THE CAPITOL ABOUT THE TUNNELS

    Senator Allard. Apparently your office is involved in a 
legal proceeding to address the complaint with the Architect of 
the Capitol, I understand.
    Mr. Eveleth. That is correct.
    Senator Allard. What is the status of that process? And how 
do you expect it will conclude?
    Mr. Eveleth. Well, we are now in the process of--we have 
submitted position papers, both sides. The hearing officer has 
been appointed. We will be setting out our respective witnesses 
and all the pretrial stuff that goes with that.
    Senator Allard. This is a hearing procedure----
    Mr. Eveleth. That is correct.
    Senator Allard [continuing]. Using a hearing officer, not a 
full-blown court case. Is that right?
    Mr. Eveleth. Well, the process is this: A hearing officer 
is appointed by the Executive Director of the Office of 
Compliance. A full litigation proceeds with discovery and so 
forth. There is then a hearing before a hearing officer, who 
issues a report. That report then may be appealed. The results 
of his order in this case will be appealed to the board of 
directors of the Office of Compliance. And then the 
dissatisfied party may go to the United States Court of Appeals 
for the Federal Circuit. So it is an administrative proceeding 
before the Office of Compliance, but subject to appeal to the 
court.

         ARCHITECT OF THE CAPITOL PLAN TO REMEDY TUNNEL ISSUES

    Senator Allard. Now, has the Office of Compliance had an 
opportunity to review the Architect's plan that was submitted 
on April 10, to both Senator Durbin and myself to remedy the 
tunnel problems?
    Mr. Eveleth. There was an excerpt given to us, I believe, 
last week. And later last week, we asked the Architect to 
provide that to us.
    Senator Allard. That is, almost 30 days after we received 
it, it was given to you?
    Mr. Eveleth. Right. And we just received it this morning. 
So I have not had a chance to look at it yet. But we were asked 
by the Architect's Office to respond to that. But as I said, we 
just got it this morning.
    Senator Allard. Okay. I am surprised that he did not allow 
you to review that before he submitted it to the subcommittee.
    Mr. Eveleth. Well, I believe the position of the 
Architect's counsel was that because we were in litigation, 
they were not going to share that information with us, and that 
was really something that should be governed by the discovery 
under the proceedings that are now before the hearing officer.
    Senator Allard. When did the litigation get filed?
    Mr. Eveleth. February 28.
    Senator Allard. The 28th.
    Mr. Eveleth. Right.
    Senator Allard. So their immediate response is not to talk 
to you after that litigation is filed?
    Mr. Eveleth. Well, I think there could be more 
communication, yes, sir.
    Senator Allard. Yes. So you would have preferred that they 
communicated with you at least before they submitted the plan 
to us.
    Mr. Eveleth. Right.
    Senator Allard. As a consequence, we do not know how you 
really feel about that evaluation because you just got it 
yesterday.
    Mr. Eveleth. Right. Today.
    Senator Allard. Today?
    Mr. Eveleth. Right. This morning. That is correct.
    Senator Allard. You did not have a chance to review it for 
this testimony.
    Mr. Eveleth. No, I did not.
    Senator Allard. I would like to get your evaluation on that 
as soon as possible. As soon as you do get a chance to evaluate 
it, would you send it to the subcommittee as part of your 
response for this hearing?
    Mr. Eveleth. Yes, indeed.
    [The information follows:]

    As was discussed at the hearing, that report was not provided to 
the Office of the General Counsel (OGC) until the morning of the 
hearing. We are attempting to provide overall comments to the abatement 
plan itself, but also to the specific questions you posed. This is 
based on the assessment of the members of our staff and our contract 
safety consultants as well as a recent summary briefing by the staff of 
the Architect of the Capitol on May 11, 2006, respecting the AOC plan.
    The Architect's plan raises complex technical questions that this 
office will need to address with respect to the adequacy of the 
measures proposed to be undertaken, both in the short and long term, to 
correct the hazardous conditions. This will require the services of 
structural engineering firms and other experts in order to make these 
assessments. Since this office does not presently have on hand the 
necessary technical expertise to evaluate the AOC plan, it is in the 
process of interviewing experts for these purposes. Accordingly, this 
should be considered to be a preliminary report. With this caveat, 
however, the OOC is fully supportive of the emergency supplemental 
budgetary support to fund the AOC plan.
    We met with representatives from the AOC's safety, engineering, and 
tunnels staffs on May 11, 2006, to provide further explanation of the 
report. The AOC's report (on page 42) provides immediate and mid-term 
estimates of costs exceeding $117 million. While that estimate provides 
a breakdown of costs for each tunnel for fiscal year 2006, 2007, and 
2008, it does not provide a similar breakdown for each program area 
(i.e., asbestos abatement, communications upgrade, egress improvements, 
etc.). At the meeting with the AOC officials, we became aware that 
additional financial sheets existed that would provide this 
information. The AOC provided those figures to the OGC on May 16, 2006, 
and they are currently being reviewed by this office.
    The Architect's abatement plan provides a plan of action, not only 
for the conditions identified in the Complaint, dated February 28, 2006 
(falling concrete, emergency communications, and emergency egress), but 
also for those conditions identified in Citations 60 and 61 (asbestos 
and heat stress).
Comments on the Abatement Plan
    At our meeting with the AOC on May 11, 2006, Susan Adams, Director, 
Safety, Fire and Environmental Programs for the AOC, noted that the 
abatement plan was developed by the AOC in a 10-day period immediately 
following their March hearings before the Appropriations Subcommittee 
and in response to specific requests from Senators Durbin and Mikulski. 
This fact raises two concerns. First, the Report indicates that even 
though the Architect was aware of the serious conditions in the tunnels 
as a result of Citation 24 issued in CY 2000 and the repeated inquiries 
from OOC inspectors on behalf of the tunnels workers during the 108th 
inspections, the original fiscal year 2007 budget request from the AOC 
identified only $1.8 million to be reprogrammed in fiscal year 2006 and 
$1.75 million in fiscal year 2007 for the correction of the hazards and 
tunnel maintenance. That is a very small percentage of the amount now 
identified as necessary to correct these significant hazards. Second, 
we are concerned about the accuracy of both the monetary and time 
allocations assessed for the individual elements of the abatement plan. 
While we are certain that the AOC made every reasonable and good faith 
efforts to prepare reasonable estimates, past experience would indicate 
that estimates developed under such conditions may not necessarily 
prove to be accurate either in terms of the length of time or the 
amount of resources it will take to effectively abate the hazards, 
especially since the contracted for condition assessments have not been 
completed, and the full extent of remedial measures necessarily have 
not been determined. Therefore, both interim and long-term measures 
proposed by the AOC plan may be inadequate to fully protect the tunnel 
workers, and may consequently place them at further risk.
    In addition, we believe that parts of the AOC's abatement plan do 
not provide adequate interim protective measures. For example, one 
interim measure involves the Construction Management Division of the 
AOC (now Construction Division) conducting visual inspections in order 
to identify those areas where the risk of falling concrete is most 
severe. Prior consultant reports indicate that visual inspections may 
not adequately identify all areas of potential delamination and 
spalling. The CD is tasked with removing concrete sections at risk of 
falling. This is a cumbersome and time consuming process. Workers must 
erect structures to protect the piping system from falling concrete 
pieces, and the small, confined spaces make access to the spalling 
concrete difficult. Therefore, it is unlikely that these interim 
measures can be completed by the end of the calendar year as estimated 
by the AOC. The longer this process takes, of course, the longer tunnel 
workers and others will be exposed to this serious hazard. Additional 
information should be sought from the AOC to ascertain whether 
sufficient resources are being dedicated to this task.
    Under the AOC plan, hazards in the Y tunnel will be among the last 
to be permanently fixed. The study which will advise whether the Y 
tunnel should be replaced or repaired is scheduled to be completed by 
the end of fiscal year 2006. However, if the recommendation is made to 
replace the tunnel, then another study will be required to determine if 
other options, such as alternative sources of power for the buildings 
serviced by the Y tunnel, are available. That study is not anticipated 
to be completed until at least the middle of 2007. Again, because of 
the lack of sufficient egress points, the high heat levels, and the 
advanced state of deterioration in this tunnel, we are concerned about 
the adequacy of interim measures to protect workers using this tunnel.
    In the abatement plan, the AOC requests approximately $14 million 
for complete asbestos removal in the tunnels and the installation of 
new insulation. The OOC endorses this approach in theory. GAO 
accurately testified to the Appropriations Subcommittee on April 27, 
2006, that the industry standard calls to leave asbestos in place, 
unless it is going to be subject to further damage, or access is needed 
for maintenance. During that hearing, however, neither GAO nor the AOC 
discussed a principal justification for complete removal of asbestos in 
additional areas of the tunnels where the steam pipes generate 
excessive heat levels that adversely affects the integrity of the 
tunnels and the health and safety of tunnel workers. These adverse heat 
conditions only serve to exacerbate the problems already present 
causing further deterioration and spalling of the concrete. We are 
informed by the AOC that by replacing the current asbestos coverings 
with other types of insulation, the temperatures in tunnels could be 
significantly reduced. Therefore. the hybrid approach of removing only 
damaged or friable asbestos and the asbestos found in the excessively 
hot areas, therefore, may not be effective from either an abatement or 
cost effectiveness standpoint. Accordingly, we believe that before a 
decision is made with respect to adopting the hybrid approach this 
issue should be carefully studied.
    Of particular concern is the fact that the abatement plan provides 
no mechanism for the sharing of information with the Office of 
Compliance which is responsible for assuring that the violations set 
forth in the underlying citations are fully abated. The General Counsel 
is responsible for monitoring abatement. In order to provide 
appropriate oversight and evaluation of the effectiveness and progress 
of the abatement measures, the AOC must make continuously available 
full access to the information produced by the AOC and its contractors. 
This is an area where this office can be of assistance in providing 
independent analyses and assessments for the Subcommittee.
Comments to Specific Questions
    We were asked to address those priorities that are most urgent and 
those that could be dealt with at a later time.
    While all of the conditions addressed in our Complaint and 
Citations 60 and 61 are significant, in our judgment the highest 
priority must be given to those hazards that create the most serious 
and imminent risk of harm. First and foremost are those measures that 
protect the tunnel workers from falling concrete. Second, is protection 
from friable asbestos exposure. Finally, are those risks that are 
exacerbated as a result of the heat stress.
      Asbestos Issues in the Tunnels and Vaults As of May 2, 2006
A.What has the AIR SAMPLING shown so far?
    1. We have reviewed 79 ``valid'' sample results provided to us by 
the AOC.
  --``Valid'' means samples that were not overloaded, voided or field 
        blanks.
    2. Nine (9) of these sample results exceeded 0.1 fiber per cubic 
centimeter; however, only one employee's exposure exceeded 0.1 fiber/cc 
after the results were adjusted for time.
  --0.1 fiber/cc is the OSHA permissible exposure limit (``PEL'') for 
        an 8-hour time-weighted average (``TWA'').
  --``Adjusted for time'' means time-weighted or averaged for an 8- 
        hour period.
    3. The one employee whose ``time-weighted'' sample exceeded 0.1 
fiber/cc had a TWA exposure of 0.30 fiber/cc averaged from the two (2) 
samples of his exposure for that day.
  --That employee was an AOC inspector, but it is not clear from the 
        monitoring records what he was doing that produced a much 
        higher exposure level.
    4. That employee's 30-minute exposure (3.49 fiber/cc) exceeded the 
excursion limit.
  --The excursion limit (``EL'') is another OSHA PEL for asbestos; the 
        EL limits 30-minute exposures to 1.0 fiber/cc.
    5. The documentation records did not have sufficient detail to 
explain why this worker's exposure was significantly greater than the 
other employees' sample results.
    6. The OOC performed five samples on Tunnel Shop employees last 
week.
  --The ``preliminary'' results for both time-weighted averages and 30-
        minute excursions have been less than the OSHA PELs.
  --``Preliminary'' means we have received facsimile results from the 
        OSHA laboratory but do not have the formal confirmation of the 
        results.
    7. The OOC monitoring for the Tunnel Shop is not complete.
  --During the sampling done last week, Tunnel Shop employees were 
        performing escort duties, tracing circuits and walk-through 
        duties.
  --These duties would not be expected to disturb the asbestos and 
        create large exposures.
  --The OOC intends to sample Tunnel Shop employees during repairs and 
        when they use equipment likely to disturb asbestos.
  --These tasks occur intermittently; therefore, it might take some 
        months before the OOC's sampling has been completed.
B. Is the personal protective equipment (PPE) used in the tunnels 
        adequate?
    1. From the sample results done so far, so good. The ``half-face'' 
respirators and Tyvek coveralls (which also cover the shoes) provide 
adequate protection for these levels.
  --``Half-face'' respirators seal across the top of the nose and don't 
        cover the eyes.
  --``Full-face'' respirators seal across the forehead and shield the 
        eyes.
    2. OSHA requires different types of respiratory protection for 
higher exposure levels.
  --Half-face respirators may be used if exposures don't exceed 10 
        times the PEL.
  --The highest exposure (time-weighted and excursion) is 3 to 3.5 
        times the PEL.
    3. If future samples (done during operations that disturb asbestos 
more than the samples taken to date) exceed 10 times the PEL, full-face 
respirators would need to be used.
  --Higher levels would require even more protective respirators.
  --If levels exceed 10 times the PEL, then (at least) full-face 
        ``powered-air purifying'' would be needed.
  --Levels higher than 100 times the PEL would require supplied-air 
        respirators operated in the pressure demand mode.
  --The highest levels (more than 1,000 times the PEL) would also 
        require an auxiliary self-contained breathing apparatus (often 
        called an ``escape bottle'').
C. What DECONTAMINATION is required?
    There are two sets of requirements for decontamination.
    1. One set is for workers who maintain the tunnels and the 
equipment within the tunnels.
  --Hygiene requirements for these workers are found in the General 
        Industry Standard [Sec. 1910.1001].
    2. A second set of requirements for hygiene is found in the 
Construction industry standard [Sec. 1926.1101]
  --The definition of construction work [Sec. 1926.32(g)] lists 
        ``construction, alteration, and/or repair.''
  --Workers who are abating the asbestos, performing cleanup associated 
        with abatement activities, or performing construction, 
        alterations and/or repair must comply with the Construction 
        Industry requirements.
D. What decontamination does the general industry standard require for 
        asbestos?
    The General Industry requirements for ``hygiene facilities and 
practices'' lists the following required elements for employees who are 
exposed above a TWA or EL:
  --Clean change rooms must be provided with separate storage areas to 
        prevent street clothes from being contaminated from protective 
        clothing and equipment.
  --Showers must be used, at least at the end of the shift.
  --Employees required to shower must not wear clothing or equipment 
        outside the workplace during the shift.
  --Lunchroom facilities with positive pressure, filtered air supply 
        must be readily accessible to employees.
  --Employees must wash their hands and faces before eating, drinking 
        or smoking.
  --Employees must not enter lunchroom facilities with protective work 
        clothing or equipment unless surface asbestos fibers have been 
        removed.
E. What decontamination is required by the construction industry 
        standard?
    1. The Construction Industry standard [Sec. 1926.1101(j)] has 
different ``hygiene facilities and practices'' required for different 
types of asbestos work.
    2. The most stringent requirements are for ``large Class I'' jobs.
  --``Class I'' work involves removing thermal system insulation or 
        surfacing asbestos-containing materials or presumed asbestos-
        containing materials (``ACM/PACM'').
  --``Large jobs'' involve more than 25 linear feet or 10 square feet 
        of thermal system insulation or surfacing ACM/PACM.
    3. The less stringent requirements are for ``small'' Class I jobs, 
and for Class II and Class III jobs where exposures exceed a PEL or 
where exposures have not been determined.
  --``Small jobs'' involve less than 25 linear feet or 10 square feet 
        of thermal system insulation or surfacing ACM/PACM.
  --Class II work involves removing ACM other than that in Class I. 
        Examples include: wallboard, floor tile, roofing, siding, and 
        mastics.
  --Class III work involves repair and maintenance operations where ACM 
        is likely to be disturbed.
    4. Employees doing Class IV work in a regulated must comply with 
the hygiene practices of the other employees in the area.
  --Class IV work during which employee contact, but do not disturb, 
        ACM or PACM, and activities to clean up dust, waste and debris 
        resulting from Class I, II and III activities.
F. What decontamination is required for ``large'' Class I jobs?
    1. Decontamination area must be adjacent to, and connected with, 
the regulated area.
    The decontamination area must have an equipment room, shower, and 
clean room in series.
  --Employees must enter and exit through the decontamination area.
    2. Equipment rooms must have impermeable, labeled containers to 
contain and dispose of contaminated PPE.
  -- Employees do not remove their respirators in the equipment room.
    3. A shower area must be adjacent to equipment room and the clean 
room, unless the employer can demonstrate that this location is not 
feasible.
    4. Where the shower area is not adjacent to the equipment room, 
before proceeding to the shower, employee must either--
  --remove contamination from their work suits using a HEPA vacuum, or
  --remove contaminated work suits and don clean work suits.
    5. A clean change room must be equipped with storage containers for 
each employee.
  --Employees must change into street clothing in the clean change 
        rooms, or in a clean change area if a room adjacent to the 
        equipment room is not feasible.
  --Upon entering a regulated area, employees must don PPE and 
        respirators in the clean room or area.
    6. Lunch areas on site must be in areas where exposures are less 
than the PELs.
G. What are the decontamination requirements for ``small Class I'' 
        jobs, or ``Class II'' or ``Class III'' jobs where exposures 
        either exceed a PEL or haven't been determined?
    1. An equipment room or area must be established adjacent to the 
regulated area, covered by an impermeable drop cloth on the floor or 
horizontal working surface.
  --The room or area must have impermeable, labeled containers to 
        contain and dispose of contaminated PPE.
  --Area must be of sufficient size for cleaning equipment and removing 
        PPE without spreading visible contamination beyond the area.
  --Work clothing must be cleaned with a HEPA vacuum before it is 
        removed.
  --All equipment and surfaces of containers must be cleaned before 
        removing them from the equipment room or area.
  --Employees must enter and exit the regulated area through the 
        equipment area.
H. What have our inspectors found regarding decontamination procedures?
    1. During an inspection, one of our inspectors observed a briefing 
to Tunnel Shop personnel from a safety contractor (Mr. Hedges from 
``The Safety Company'') on AOC decontamination policy.
  --The stated goal was to use some General Industry and some 
        Construction Industry requirements; that goal would not produce 
        a compliant policy.
  --The briefing resulted in a discussion of end-of-day showering 
        versus showering to prevent contamination from spreading into 
        other campus buildings.
  --The only decontamination that our inspectors observed was the 
        removal of PPE, which had been worn over the work clothes that 
        are taken home for cleaning.
I. What information is required in monitoring records?
    1. Monitoring records must include the following information 
[Sec. 1910.1001(m)(1) and Sec. 1926.1101(n)(2)]:
  --The date of measurement;
  --The operation involving exposure to asbestos which is being 
        monitored;
  --Sampling and analytical methods used and evidence of their 
        accuracy;
  --Number, duration, and results of samples taken;
  --Type of respiratory protective devices worn, if any; and
  --Name, social security number and exposure of all employees whose 
        exposure are represented.
    2. The two required items that we have found to be of concern in 
the past are:
  --The description of the operations lack sufficient detail to 
        determine the potential sources and pathways of exposure.
    --For example, there is no information associated with the single 
            employee whose exposure is 3 times the PEL to offer an 
            explanation as to why both of his sample results on that 
            day were much higher than the others.
  --All of the employees whose exposure is represented by a sample are 
        not documented.
    --For example, the descriptions that AOC provided indicated one or 
            two people were doing the same operations in the same area 
            and, presumably, their exposures would be similar. The 
            names of these employees, however, are not identified in 
            the records.

    Senator Allard. Thank you. Now, rather than both your 
office and the AOC spending a lot of resources in litigation, I 
am interested in focusing on results wherever possible. Can the 
Office of Compliance work cooperatively with the Architect to 
come up with appropriate remedies to this, or has this 
litigation step made that impossible?
    Mr. Eveleth. No. I would certainly prefer to do it that 
way. I think that is really what should be done. I think we 
should be working--we do work--we do meet with the Architect 
monthly on other matters, as well. And we have worked fairly 
cooperatively with them. And I do not see why it could not be 
done in this instance. I also think that we could be working as 
well with the Government Accountability Office (GAO), because 
we know that they are involved in this, as well. And I would 
think that the combined resources of all of us--and as I have 
said before, we all lay our cards out on the table, because 
this is one entity, this is the legislative branch. This is not 
x corporation versus something or other. This is one entity, 
and I look forward to working with the Architect and GAO, if at 
all possible, in this.
    Senator Allard. I think one thing that would help us in 
working with him is to set priorities of those items that are 
most urgent to take care of and those that could be dealt with 
at a later time. We tried to work that out with our emergency 
supplemental request. But I think at some point in time we will 
ask you that question, and the Architect. So when you are 
discussing back and forth with one another, that would be an 
important helpful response for this subcommittee.
    Mr. Eveleth. We would be certainly pleased to do that. And 
that is what we are trying to do.

  OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION APPROVED METHODS FOR 
                            ABATING ASBESTOS

    Senator Allard. Very good. Now the Architect of the Capitol 
testified last week that they were using Occupational Safety 
and Health Administration (OSHA) approved methods. From what 
you understand, are they using OSHA approved methods or not, or 
do you need to review the plan before you respond to that?
    Mr. Eveleth. Is this with respect to asbestos?
    Senator Allard. Yes. That is on the decontamination 
procedures.
    Mr. Eveleth. Right. Right. Yes and no. We have reviewed 
some of the samples that we were provided and the data that 
accompanied that. I do not think that we received all the data 
yet. And in addition, we are also doing some asbestos testing 
ourselves, as an office. There are certain requirements that 
are set out under the OSHA regulations. And there are two 
problems that we are seeing now, and one is that there is a 
lack of a description of the operations, adequate description 
of the operations, that the tunnel workers, or whoever it is 
that is in the tunnel, could be the CMD people, as well as the 
tunnel workers who are doing work in the tunnels.
    And there is a lack of sufficient detail to determine what 
it is that they are doing. That is very important in order to 
make a determination about whether the levels of asbestos 
exceed the standards. Because you could just be walking through 
the tunnel, and it is not--you are not--if you are not engaged 
in your usual activity, you are not in a position to judge what 
the degree of risk is.
    And this is very important because the amount of protection 
that you are required to have, in terms of face masks and other 
things like that, come into play, depending on whether or not 
you are exceeding the exposure levels or not. If you exceed 
them greatly, then you need different kinds of masks than you 
would need if you are only exceeding it----
    Senator Allard. If I remember his testimony, he talked 
about a half face mask----
    Mr. Eveleth. Right.
    Senator Allard [continuing]. As opposed to a full face 
mask.
    Mr. Eveleth. There are full face masks there. And there are 
others, as well.
    Senator Allard. Do you think there might be a need for a 
full face mask?
    Mr. Eveleth. It would depend on the degree of exposure to 
asbestos.
    Senator Allard. Okay.
    Mr. Eveleth. And if there is a great deal, then you need a 
full face mask. And if there is even more than that, then you 
need something that actually pumps air, oxygen, into the mask 
and so forth.
    Senator Allard. So you are not sure that they are complying 
with OSHA approved methods at this point. That is the bottom 
line. Is that correct?
    Mr. Eveleth. I think that would be an accurate way of 
putting it. And also, there are issues, I think, that involve 
decontamination, that is to say, whether they provide a clean 
room for people to take off their work clothes, if there may be 
fibers of asbestos on it. There are certain requirements with 
regard to taking a shower before they go out of the area and so 
forth and so on. And some of those are still questionable.
    Senator Allard. Well, when you review his report that you 
just received----
    Mr. Eveleth. Yes.
    Senator Allard [continuing]. Keep that question in mind. If 
you could give us a more complete answer back, we would 
appreciate that.
    Mr. Eveleth. Okay. Happy to.
    [The information follows:]

    Question. Does the AOC follow OSHA-approved methods with 
regard to asbestos, in terms of personal protective equipment 
and decontamination procedures?
    Answer. The type of personal protective equipment (PPE) 
that is required depends on the exposure level. For example, if 
the level of exposure does not exceed 10 times the permissible 
exposure limit (PEL), half-face mask respirators may be used. 
The limited sample data available to date shows the highest 
exposure is 3 to 3.5 times the PEL. If this were the highest 
exposure, then half-face mask respirators would be adequate. 
If, however, future samples were taken during operations that 
disturbed asbestos more than the samples taken to date, and the 
samples exceeded 10 times the PEL, full-face mask respirators 
would be required. See Asbestos Issues in the Tunnels and 
Vaults, B.1. below. Because we currently do not have sufficient 
data to ascertain whether the PPE now used in the tunnels is 
adequate, we cannot definitively determine the amount of 
asbestos to which workers are exposed in the course of 
performing their usual duties.
    With regard to decontamination procedures, based upon 
limited inspection, it did not appear that the decontamination 
procedures followed by the AOC in April 2006 were fully code-
compliant. As discussed more fully in Asbestos Issues in the 
Tunnels and Vaults, pp. 6-8, below, the OSHA General Industry 
Standard that applies to workers who maintain the tunnels and 
equipment within the tunnels sets forth specific protective 
measures for employees who are exposed to asbestos levels above 
the PEL. These include providing clean changing rooms with 
separate storage areas to prevent street clothes from being 
contaminated from protective clothing and equipment, showers, 
and limitations upon workers wearing protective equipment in 
areas outside the workplace. A second set of requirements is 
found in the Construction Industry Standard. We understand from 
recent discussions with the AOC that it will be revising its 
decontamination procedures to bring them into compliance with 
OSHA requirements.

                              AIR SAMPLING

    Senator Allard. Now, unfortunately, the Architect of the 
Capitol has not consistently and systematically sampled the air 
in the tunnels for the presence of asbestos. And as a result, 
we have no documentation on what exposure there may have been 
in the past. Is AOC currently using appropriate methods of 
sampling? Can you answer that question?
    Mr. Eveleth. I would prefer, if I could, to defer to submit 
this afterward, because I would rather use the knowledge of my 
safety experts on that. And they could give you a much more 
detailed and----
    Senator Allard. That would be fine.
    Mr. Eveleth [continuing]. Precise answer. Because I am a 
lawyer, as you know, and----
    Senator Allard. Okay. I will give you some time to do that. 
I am wondering is it unreasonable to request that you respond 
back to our concerns within 10 days?
    Mr. Eveleth. I think we could certainly do that.
    Senator Allard. Okay. Well, we will expect it in 10 days. 
If you cannot, if you would notify the subcommittee----
    Mr. Eveleth. I will do so.
    Senator Allard. I would appreciate that.
    Mr. Eveleth. Right.
    [The information follows:]

    Question. Is the AOC currently using appropriate methods of 
sampling the air in the tunnels for the presence of asbestos?
    Answer. Sampling asbestos correctly necessitates collecting 
samples under all several scenarios, from those with the most 
exposure risk to those with the least. This includes taking 
samples under circumstances under which asbestos may be 
disturbed and become airborne. In our discussions with the AOC, 
it appears that it recognizes deficiencies in the methods it 
has employed in taking asbestos samples. Specifically, there 
are too few samples, taken under circumstances that are the 
least likely to disturb the asbestos, and the monitoring 
records lack sufficient detail to determine potential sources 
and pathways of exposure. For example, the monitoring is 
unrepresentative because the samples we reviewed were not taken 
when employees were performing duties such as performing 
repairs or using equipment likely to disturb asbestos and 
create greater exposures. Specific details follow in Asbestos 
Issues in the Tunnels and Vaults, A. 6&7 & I, below.

                     DISTANCE BETWEEN EGRESS POINTS

    Senator Allard. With respect to the new utility tunnel for 
the Capitol Visitor Center, we had some discussion on that in 
our last hearing as to the appropriate travel distance between 
egress points in such tunnels. Now that is a 750-foot tunnel 
that has no escape hatches. Is there a safety code that 
mandates what the distance should be?
    Mr. Eveleth. Yes, there is. And I would--let me give you, 
if I may, a brief response to that. And I will also supplement 
that, if I may. But it is my understanding, after speaking to 
our safety experts is that yes, there is a requirement. And as 
we understand it, the distance, there should be an exit at 
least every 800 feet, which means--in other words, there would 
be a 400-foot travel distance for an employee to get to an 
exit. It is every 800 feet if the tunnel is fire sprinkler 
protected. In other words, you get a greater distance if there 
is a sprinkler in there. If there is not----
    Senator Allard. Is that tunnel that was just constructed 
fire sprinkler protected?
    Mr. Eveleth. We have not inspected that. I do not know the 
answer to that. But I do know that that is the requirement. In 
other words, there would be 600 feet between exits if it is not 
fire sprinklered. It is 800 if it is fire sprinklered.
    Senator Allard. I see.
    Mr. Eveleth. So that in this instance, it is assuming that 
it is not fire sprinklered. It would appear--but, of course, we 
have not inspected it. We do not know what it looks like. There 
may be something that we do not know about it. So I do not 
really want to opine more than I just have.
    Senator Allard. Now there seems to be more confusion. The 
Department of Labor has their Occupational Safety and Health 
Administration and they have a fire code here. It is the NEPA 
101 Life Safety Code. If I refer to that document, does that 
make sense to you?
    Mr. Eveleth. Yes.
    Senator Allard. Okay. In that document, in paragraph 
40.2.6.1, they say the travel distance measured in accordance 
with section 7.6, that is the travel distance to exits, shall 
not exceed 200 feet or 60 meters.
    Mr. Eveleth. Right. But I believe that there is another 
section, which is 40.2.6.3.
    Senator Allard. Okay. Well, I think we are confused on the 
subcommittee. I am wondering if you can resolve this.
    Mr. Eveleth. Certainly.
    Senator Allard. And get a memo to us on that.
    Mr. Eveleth. Right. Because there is a special exit travel 
distance requirement for low and ordinary hazard special 
purpose industrial occupancy. That is the way it----
    Senator Allard. Okay.
    Mr. Eveleth. And that is apparently a more lenient issue.
    Senator Allard. It depends on the type of tunnel that you 
are dealing with.
    Mr. Eveleth. That is correct. That is correct.
    Senator Allard. Okay. Well, if you would work that out.
    Mr. Eveleth. Sure.
    Senator Allard. And we are interested in making sure that 
we are meeting the code with the new tunnel.
    Mr. Eveleth. Right.
    Senator Allard. That is the bottom line.
    Mr. Eveleth. Right.
    [The information follows:]

    Question. Clarify the travel distances between escape hatch 
for tunnels (with and without sprinkler). Which Life Safety 
code applies under what circumstances?
    Answer. The Life Safety Code was developed to provide 
protective measures for building occupants when there is a 
fire. However, the main hazard in Capitol Hill utility tunnels 
is a steam leak. Although most of the time when safety people 
think about a ``travel distance'' issue, they think of fire 
safety and the Life Safety Code, unfortunately, there is not a 
specific tunnel safety code. Although we are not certain what 
standard should apply in steam tunnels, we want to be very sure 
we understand what the generally applied practice is. There 
probably is an ``industry practice'' for the major tunnel 
designers and builders, and we have been received some 
preliminary data that indicates it may be about 500 feet, from 
exit to exit (point-to-point). We need to ascertain the 
industry practice in order to determine if the General Duty 
Clause of the Occupational Safety and Health Act applies in 
this circumstance; if there is an industry practice, the 
General Duty Clause requires that it be followed.
    Some of the remedies in the Life Safety Code to protect 
tunnel occupants from fire could actually make conditions in 
the tunnels more hazardous, if a steam leak were to occur. For 
example, a fire barrier would not help, because it would 
compartmentalize sections of the tunnel and cause steam buildup 
and intensity. If steam leaks, what the workers need to be able 
to do is to run away from the leak and get out of the area or 
tunnel. In the case of the Capitol Visitor Center utility 
tunnel the only safety item at issue is whether the distance 
between the two exits is too great. The tunnel was installed 
with only two exits--one at either end, with the distance 
between exits of almost 800 feet.
    We have had discussions of this issue with the AOC and the 
CVC contractors who built this tunnel. A review of the 
engineering consultant's assertions to the AOC would appear to 
indicate that there is no outside limit to the travel distance 
that is required under the Life Safety Code due to the way the 
engineering contractor characterized the tunnel. We disagree 
with the underlying assertion that unlimited distance is 
acceptable, since, among other factors, the industry practice 
would suggest otherwise.
    What we have been told by the AOC is that installing 
another egress point would be expensive and that there is no 
money for doing it. This week, the Office of Compliance met 
with representatives from the AOC and the CVC contractors, and 
explained to them that we wanted to do further research into 
the issue and verify what is the ``acceptable norm'' for tunnel 
egress, as a matter of industry practice. Until we've completed 
our research, the OOC is not taking the position that another 
egress is needed in the CVC tunnel, but we do want to find out 
what other organizations are doing when they build new utility 
tunnels. We anticipate that we will reach a conclusion by the 
end of this month, and we will so advise the Subcommittee.
    If an additional egress is required, the additional 
construction may be done after the CVC has been opened to the 
public. Hence, the opening need not be delayed by this 
consideration.

            FIRE ALARM SYSTEM IN THE CAPITOL VISITOR CENTER

    Senator Allard. As you know, a debate is going on now 
between the Architect of the Capitol's fire marshal and the 
Capitol Police Board as to the fire alarm system in the Capitol 
Visitor Center. Do you have any comments as to how this issue 
can be resolved expeditiously, and who ultimately should have 
the authority to make the final determination?
    Mr. Eveleth. We have not been involved in these discussions 
or consulted in these discussions, but I think we are generally 
aware of the position of the fire marshal. Our position has 
been during our inspections, and this does not deal with the 
CVC, but our belief is that, certainly except for the Capitol, 
our belief is that if a fire alarm is pulled, then the alarm 
should go off. And rather than having it do what it does in the 
Capitol, where there is an annunciator board, and the Capitol 
Police then go and check to see whether there is actually a 
fire or not. And then they come back and do what they need to 
do. If there is a fire, obviously they allow the alarm to go 
off.
    That is a unique situation. And it is unique. And for a 
number of good reasons, it is done that way. But it is done 
that way because there are a large number of Capitol police 
available, which means that they can travel to the location of 
wherever that fire alarm has been pulled in short order and get 
back and do something about it.
    That is not the case with some of the larger office 
buildings on the Hill. And that is not the case with the 
visitor center, as well. So it would be--our belief is that 
when a fire alarm is pulled, that the alarm itself should 
sound.
    Senator Allard. So your recommendation would be to treat 
the Capitol Visitor Center like any of the other large 
buildings around and still keep the Capitol under its exemption 
status because of the number of officers that are available in 
the immediate area.
    Mr. Eveleth. That is correct.
    Senator Allard. I see. I understand that that is the 
position of the fire marshal.
    Mr. Eveleth. Right.
    Senator Allard. But it is not the position of the Police 
Board. Is that correct?
    Mr. Eveleth. That is correct. Right. Now your other 
question was who should make the decision, I believe.
    Senator Allard. Yes.
    Mr. Eveleth. And normally the decision like that is made by 
the authority having jurisdiction, which, of course, is a term 
of art in the building industry. And normally that is an 
authority that is sort of independent of the parties in the 
sense that, for example, if I am a builder and I want to do 
something, I either have to follow code or I have to come up 
with something that provides the equivalent level of safety and 
protection, safety protection. And it is usually some 
independent entity that makes that decision.
    A number of years ago, a couple of years ago, the Architect 
asked to be designated as the authority having jurisdiction, so 
that it could in effect waive the prescriptive requirements and 
implement its own. This agency notified the Senate that it 
objected to that position, because it felt like it needed the 
separation between the individual deciding the case and the--I 
think that the----
    Senator Allard. So the OOC has notified the Senate that 
they do not think there is enough distance between the 
Architect, as far as personal culpability, I guess, for you to 
be happy with the Architect making the decision. Is that right?
    Mr. Eveleth. We would not be happy with the Architect being 
the authority having jurisdiction over matters of which it is 
itself both an advocate for change and approving the change. 
And so that was the position we took then.
    Senator Allard. I see.
    Mr. Eveleth. Our position----
    Senator Allard. Now where did that recommendation go to?
    Mr. Eveleth. I cannot recall. We received notice that they 
had asked for that authority. And we wrote a letter. And I 
cannot tell you at this point----
    Senator Allard. Well, you had asked through the 
appropriation process.
    Mr. Eveleth. It could have been. I can dig that up. I just 
do not remember off the top of my head.
    Senator Allard. Okay.
    Mr. Eveleth. But what I am getting at is I think we also 
took the position then that the Office of Compliance is a 
perfect model for being an authority having jurisdiction. That 
is to say, it is an independent entity that can make judgment 
about health and safety issues. And I would think that would 
also be true in this sort of situation.
    Senator Allard. Okay.
    Mr. Eveleth. And there is a full method of litigating that, 
really, if they object and we would issue a citation, I mean, 
our board would decide. And if they wanted to challenge it in 
the court, they could do that. Hopefully, it would not come to 
all that. But it is the principle that we are talking about.
    Senator Allard. Hopefully you would work it out and 
quickly.
    Mr. Eveleth. Right. Right. We would do it, we would hope to 
do it quickly.
    Senator Allard. Okay.
    Mr. Eveleth. We think the law is pretty clear on this.
    [The information follows:]

    Question. With regard to the debate between the Fire 
Marshall and the Capitol Police Board as to the fire alarm 
system in the Capitol Visitor Center, how can this issue be 
resolved expeditiously? Who should have the authority to make 
the final determination? When and to whom in the Senate did the 
OOC recommend that the AOC not be the authority having 
jurisdiction (AHJ)?
    Answer. Relevant to the question of the proper procedures 
to be applied in the operation of the fire alarm systems in the 
CVC are the findings by the OOC's General Counsel described in 
his biennial report to Congress, Report on Occupational Safety 
and Health Inspections during the 108th Congress pursuant to 
the Congressional Accountability Act, pp. 19-21 (excerpt 
attached). As noted in that Report, under the Fire Code, a fire 
alarm system is required that activates a general alarm 
throughout a building to alert occupants of fire or other 
emergencies.
    There are two exceptions to this requirement. First, a 
positive alarm sequence is permitted that allows a three-minute 
delay in the activation of the general alarm. Trained personnel 
are allowed up to 180 seconds to investigate; if the system is 
not reset, all alarms are activated automatically. This delay 
is intended to permit an investigation to determine whether 
there is a false alarm. The AOC Fire Marshal has endorsed the 
use of the pre-signal sequence in the Capitol building where 
there is a sufficient number of trained officers on duty to 
enable them to complete an investigation within three minutes. 
The second exception permits a pre-signal system that requires 
that the initial fire alarm system be automatically transmitted 
without delay to a municipal fire department and an on-site 
person to respond to a fire emergency. The specific 
deficiencies in the existing fire alarm system procedures in 
the House and Senate office buildings are discussed in detail 
in the Report.
    With regard to who should have the authority to make the 
final determination on this and other issues, we noted some of 
this agency's concerns in a letter to the Honorable C.W. Bill 
Young dated February 20, 2004 (copy attached). Although the 
Life Safety code does have not any conflict of interest 
restrictions, other building codes do place such restrictions 
on the official enforcing the code. If the Appropriations and 
relevant Oversight Committees determine that the Office of 
Compliance should be specifically designated as the authority 
having jurisdiction over these matters or to resolve disputes 
between other entities, the Office is well-situated to handle 
such responsibilities. Indeed, under the Congressional 
Accountability Act, the Board of Directors of the Office of 
Compliance is designated to serve as a neutral forum for 
resolving all disputes arising under the CAA, subject to court 
review.
    In particular, Congress vested the Board with the authority 
to determine whether a modification in the application of a 
health or safety standard is warranted because of special 
circumstances. In particular, by virtue of Sec. 1341(c)(4) of 
the CAA, employing offices may request from the Board of 
Directors of the Office of Compliance variances from the health 
and safety standards otherwise applicable by showing that the 
alternative proposed would provide a place of employment which 
is as safe and healthful as required by the standard from which 
the variance is sought. Procedural Rules of the Office of 
Compliance, Sec. 4.26 (b)(4). Alternatively, the citation and/
or complaint procedures under the Office of Compliance's 
Occupational Safety and Health Act jurisdiction could be 
followed to make a final decision on the issue.

    Senator Allard. Thank you for your testimony. You have been 
helpful.
    Mr. Eveleth. Thank you.
                       GOVERNMENT PRINTING OFFICE

STATEMENT OF BRUCE R. JAMES, PUBLIC PRINTER
ACCOMPANIED BY:
        MIKE WASH, CHIEF TECHNICAL OFFICER
        STEVE SHEDD, CHIEF FINANCIAL OFFICER

    Senator Allard. We will go to the next panel now. Our next 
panel will be the Government Printing Office.
    I want to welcome Mr. Bruce James and his team. GPO is 
requesting $151 million, an increase of $29 million over the 
current year or a 24-percent increase. The increase is in part 
due to the requirement to update the U.S. Code over 6 years, as 
well as some initiatives to further modernize the agency.
    Mr. James, you have accomplished much in your 4 years as 
Public Printer, and we appreciate your service. You have a 
great deal to be proud of, including reversing the trend of 
annual losses at the Government Printing Office, revamping the 
agency into, as you put it, a 21st century digital platform 
capable of addressing ongoing technological changes in how 
information is processed and disseminated, and developing new 
business lines, such as the electronic passports.
    You will be a tough act to follow. And we hope you will 
stay on in the Government Printing Office until the President 
can find a suitable replacement. We look forward to reviewing 
the various initiatives you have requested for fiscal year 2007 
and a status report of your efforts to make further 
improvements to modernize the Government Printing Office.
    You may proceed with your testimony now, Mr. James.

                   OPENING REMARKS OF BRUCE R. JAMES

    Mr. James. Thank you and good morning, Mr. Chairman.
    Senator Allard. Good morning.
    Mr. James. I have a statement I would like to submit for 
the record.
    Senator Allard. I will ask unanimous consent. Without 
objection, we will do that.
    Mr. James. Thank you. And I will make a few opening 
remarks. But before I do, I would like to introduce two of my 
colleagues at the table with me. The first is Mike Wash, who is 
the Chief Technical Officer of the Government Printing Office. 
Mike came in about 2 years ago to join us and has the 
responsibility for evaluating new technologies that are coming 
down the road that could impact Government printing, 
particularly the dissemination of Government information.
    He also has a responsibility for the development of what we 
are calling the future digital system, which is the system that 
will ingest all Government information and then be in a 
position to reprocess that information and send it to the 
Internet or send it out for printing or however else in the 
future someone might want to use it.
    I also have with me Steve Shedd, who is the Chief Financial 
Officer of the Government Printing Office. Steve has been with 
us for nearly 3 years now. He came to us after experience in 
the private sector both with private and public companies as a 
chief financial officer. And they will assist me, if you ask me 
any tough questions.
    Now as I was sitting in the audience, Mr. Chairman, I could 
not help but observe your shirt. And, you know, some people 
might just say, well, this is just another shirt with, you 
know, a suit. But as I sat out there, I was trying to think of 
the exact mix of cyan, magenta, yellow, and black that I would 
use to print that shirt, to reproduce it. And, you know, that 
got me thinking that much of what we do at the Government 
Printing Office is just that subject, that there is a certain 
mix of colors that we would use in printing ink to reproduce 
that shirt accurately.
    That would be analog printing, of course. But interestingly 
enough, if we presented it in a digital form on a TV set or on 
a computer screen, there would be a different set of primary 
colors involved with it. And I think what has happened here not 
only in the Government, but what has happened in the 
information industry, is that for many, many years we went 
along as if everything would be printed. So all of the 
information was gathered. It was maintained. It was coded for 
future printing.
    And what we found, of course, today is that printing is 
just one way of delivering information. As a matter of fact, 
much of the Government's information is now being delivered in 
digital format, as you are well aware. Last year, the 
Government Printing Office put 92 percent of all Government 
publications on the Internet. And the 8 percent missing is 
because we have not figured out how to do maps and other kinds 
of things, but we will get there.
    So we are making great progress. There are certain things 
that we are focused on, in particular that I am focused on, in 
my last months of service. First is the GPO building complex 
itself. In terms of square footage, the complex is twice the 
size of the Capitol. It is almost the size of the Empire State 
Building. It is a very large building complex that was built 
for a different purpose than the enterprise that we have today. 
At one time, there were nearly 10,000 employees housed in the 
Government Printing Office buildings. Today we are down to just 
above 2,000. And we do not see that number of employees 
climbing greatly.
    So we have a facility that is obsolete in every way. Now 
rather than come to this subcommittee and to Congress and ask 
for public funds to replace that building and re-equip it for 
the future, instead we have worked out, I think, a very 
ingenious plan for converting the existing real estate we have 
into cash that would allow us to build a new building and equip 
that building as we need to do without losing title to that 
property for the Government.
    What is significant about that is that about $35 million of 
what we spend each year at the Government Printing Office goes 
to the maintenance of this obsolete campus. And it is money 
that we would not have to otherwise spend if we were not there.
    And, you know, I sit here in front of you asking for a 
relatively modest amount of money. But I want you to think 
about that $35 million that we are spending each year that we 
do not have to spend. If we get on with this building project, 
we will be able to actually reduce the request to this 
subcommittee for appropriations each year. So any help that you 
can give us in helping to move this project along, we would 
much appreciate it.
    The second very important thing that we are engaged in is 
the building of the future digital system, which falls under 
Mike Wash. That system, as I mentioned 1 minute ago, is the 
future. What it will do is take Government information into the 
system. It will not be coded for printing. It will have a 
generic coding scheme in it that both identifies the kind of 
information it is, whether it is a headline or a paragraph or 
what it is.
    It also will contain the source, who created the document, 
when was it created, that type of information. And it will be 
stored in such a way that it will allow us to authenticate the 
fact that the information is actually what the author wrote. It 
will allow us to preserve that information in perpetuity. And 
it will allow us to repurpose that information and send it out 
however the Government might require it in the future, or 
however a public user might want that information in the 
future.
    The third thing that I think is very important is that it 
is one thing to take the ongoing information of the Government 
and be prepared to deliver it digitally. But, you know, we have 
a 200-year history. And that history is very important. We have 
tons, carloads, trucks, warehouses full of paper all across the 
country that represent the legacy documents of the United 
States Government.
    Now we are very fortunate to have 1,250 library partners in 
the Federal depository library system, which has maintained 
those books for us in print, and not only maintained those 
books, but most importantly have helped the public get the 
information from those books.
    But our libraries are changing. The entire world is 
changing. And we have to be able to go back and digitize that 
legacy collection and also make it available over the Internet. 
Now we believe we probably can find the funds to do this 
ourselves, with not much help from Congress.
    The next area that we are focused on is workforce 
retraining. We have a lot of people at GPO that are used to the 
analog world, those who once set type with linotype machines, 
once made plates, once operated offset presses. And I do not 
believe they are threatened in any way by the changes that we 
are talking about. As a matter of fact, our 23 bargaining units 
have been very supportive of the changes that we are making. 
And I think the reason is that over our 145-year history we 
have been through many technological changes, each of which 
made the Government Printing Office stronger. And they see this 
as just part of a pattern.
    But we owe it to these folks to build on the skills that 
they have acquired over the years, to now introduce and train 
them in new digital skills. And we are focused on that.
    We also are focused on replacing our legacy computer 
systems. You hear this, the Appropriations Committee hears 
this, almost from every agency. When I walked in the door, I 
could not believe the state of the computer systems. I mean, 
these were machines that I had not seen in 30 years that were 
held together with spit and chewing gum. And as our employees 
retire, we had a 81-year-old retire not so long ago, I mean, we 
are losing the skills that are required to keep those systems 
up to date. So we are in the process of replacing our legacy 
computer systems with state-of-the-art equipment that is 
properly sized, properly constructed to be able to allow us to 
move along in the future. And we are asking for help in regard 
to replacing those systems.

                           PREPARED STATEMENT

    And the last thing that we are all focused on, particularly 
Judy Russell, the Superintendent of Documents, with me, and 
that is working with our Federal depository libraries to create 
the Federal depository library system of the future. It is 
clear that as we change in the way we process information, 
libraries, too, are changing. And we want to make sure that we 
are completely aligned with our libraries. These have been very 
valuable partners for many years. And we do not want to lose 
the value of that partnership, which we believe is helping the 
American public find and use Government information.
    And that concludes my opening remarks, Mr. Chairman.
    [The statement follows:]

                  Prepared Statement of Bruce R. James

    Mr. Chairman and Members of the Subcommittee on Legislative Branch 
Appropriations: It is an honor to be here today to present the 
appropriations request of the U.S. Government Printing Office (GPO) for 
fiscal year 2007.
    Mr. Chairman, this will be the last time I have the privilege of 
appearing before you. Over the past three years, with the strong 
support of this Subcommittee, we have managed to turn GPO in a new 
direction, one that promises a positive future for our great agency for 
many years to come. Now, after three and a half years of working to 
achieve that result and much more, it is time for me to begin the plans 
for return to my home in Nevada. My pledge was to remain as Public 
Printer for the 3 to 5 years it would take to reposition GPO for the 
future. I have advised the President that I will continue to serve 
until a new Public Printer is chosen. I want to assure you that I will 
work hard to make a smooth transition of leadership so that GPO does 
not miss a step going forward.

                              2005 RESULTS

    Since my appointment as Public Printer, we have been transforming 
GPO into a 21st century digital platform capable of addressing ongoing 
technological changes in how information is processed and disseminated.
    Our goal is to provide Government information in the form and 
formats our customers want and need in this burgeoning digital era, and 
to ensure that the abiding mission of the GPO--Keeping America 
Informed--continues to be carried out for generations to come.
    A primary order of business has been restoring and maintaining 
GPO's financial health. I am pleased to report that our efforts to 
modernize and prepare GPO for the future, with Congress's support, are 
generating measurable--and ever improving--returns to GPO's bottom 
line.
    Net income from consolidated GPO operations for fiscal year 2005 
increased to $6.1 million from $1.3 million the previous year, 
reversing the pattern of losses from the last decade. We also recorded 
another reduction to our long-term liability for the Federal workers 
compensation program.
    Our financial turnaround has also been aided significantly by 
efforts to right-size GPO's workforce through voluntary separation 
incentive programs supported by Congress. In 2003 and 2004 we reduced 
GPO's workforce by 542 positions, resulting in a savings in personnel 
compensation and benefits costs of about $38 million annually.
    During the first quarter of fiscal year 2006, another incentive 
program, which was carried out under the Consolidated Appropriations 
Act for Fiscal Year 2005 (Public Law 108-447), resulted in a further 
reduction of 89 positions. Recurring annual savings from this recent 
program will be approximately $8 million commencing October 1, 2006.
    Fiscal year 2005 marked a turning point in our transformation 
efforts with the release early in the year of our Strategic Vision for 
the 21st Century, which was transmitted to Congress and distributed to 
GPO's stakeholders in both the public and private sectors.
    This document provides a framework for how our transformation 
goals--development of a digital content system to anchor all future 
operations, reorganization of the agency into new product- and service-
oriented business lines along with investment in the necessary 
technologies, adoption of management best practices agency-wide 
including retraining to provide needed skills, and relocation of the 
GPO to facilities that are sized and equipped to meet our future 
needs--will be carried out and funded. During the year we made 
significant progress in each of these directions.
    The core of our future operations will revolve around a digital 
content system that we currently refer to as FDsys, for Future Digital 
System. FDsys is being designed to organize, manage, and output 
authenticated content for any use or purpose.
    With the approval for transferring the unexpended balances of prior 
year appropriations to GPO's revolving fund, we secured the majority of 
the funds we will need to bring FDsys into operation. In the 
development of this system, we are engaging key elements of our 
customer community in Congress, in Federal agencies, and in the library 
community, and we are working under the guidance of the Joint Committee 
on Printing.
    We created a new business line for Security and Intelligent 
Documents in 2005 that consolidates our longstanding expertise in 
security documents and offers a broad range of consultative services to 
Congress and Federal agencies attempting to respond to new standards 
and statutory requirements in this area. An early product of the unit 
was the security printing requested by the Joint Congressional 
Committee on the Inauguration to support the first Presidential 
inaugural ceremonies since 9/11. This business unit is working closely 
with the Social Security Administration, the State Department, the 
Department of Homeland Security, and other Federal agencies with secure 
and intelligent documents responsibilities.
    We also created a new Digital Media Services business line to 
provide essential retraining in digital production skills and 
eventually generate content from legacy documents for ingest to FDSys. 
We are developing an efficient and cost-effective approach to legacy 
digitization to be carried out by this new business line, and are 
currently engaged in a demonstration project as approved by the Joint 
Committee on Printing.
    During 2005 we endowed other business lines with new capabilities. 
To improve plant production efficiency and broaden the range of product 
and service options for Congress and Federal agencies, we invested in a 
variety of new color and digital production technologies.
    We augmented our expert printing procurement services by partnering 
with a nationwide firm to provide innovative new convenience 
duplicating and printing services to Federal agencies across the 
country. This contracting mechanism features provisions for capturing 
Federal documents electronically, which will significantly assist our 
efforts to broaden the availability of Federal information for public 
access and reduce the incidence of ``fugitive documents.'' We also 
significantly increased the dollar limit on our popular simplified 
purchase agreements, expanding and simplifying the ability of Federal 
agencies to procure products and services directly from lists of pre-
qualified vendors without first having to go through GPO.
    Under the leadership of GPO's Superintendent of Documents, we 
engaged the depository library community in a dialog to define the 
future of the Federal Depository Library Program while continuing to 
move the Program toward a predominately electronic basis as required by 
Congress. The total number of titles we now make available on GPO 
Access (www.gpoaccess.gov) increased to more than 300,000, with an 
average of 37 million retrieved every month, and the dollars we now 
dedicate to distributing print publications to depository libraries has 
fallen by at least 50 percent over the past decade.
    In our Sales of Publications Program, we developed a plan to 
partner with private sector sales and distribution providers who can 
expand Government publications sales offerings to the public, 
implementing a key recommendation of a management audit of GPO ordered 
by the House and Senate Appropriations Committees in Public Law 105-55. 
The plan would also return a portion of the revenues to GPO. We have 
issued a Request for Proposal for these services.
    We continued work on our Oracle enterprise system, which will 
replace a number of labor intensive accounting and inventory functions 
with IT solutions, reducing cost and speeding work throughput. Expanded 
employee training opportunities were also made available, ranging from 
new offerings on the shop floor to ``transformational leadership'' 
seminars for all supervisors and managers. Our Digital Conversion 
System will also provide new retraining opportunities.
    Although the GPO is not subject to the Government Performance and 
Results Act (GPRA), we take the spirit and intent of its provisions 
seriously, particularly its emphasis on performance measurement. During 
the year we worked to design systems to provide quantitative 
measurement in evaluating the progress of our strategic and management 
initiatives, and in this request we are seeking funds to implement that 
system.
    Progress toward our goal to relocate the GPO to new facilities 
moved ahead in fiscal year 2005 with the delivery of a formal plan for 
this project by our expert real estate advisory consultant. The plan, 
along with draft legislative language to authorize the project, was 
submitted to our oversight and Appropriations Committees accompanied by 
legislative briefings. We also began work on a plan to establish an 
ancillary production site for passports and other essential Government 
documents, and will be consulting further with our oversight committee 
on this matter this year.

                        FISCAL YEAR 2007 REQUEST

    Our fiscal year 2007 appropriations request is designed to provide 
for:
  --Continuation of our congressional printing and binding operations 
        and information dissemination services at required levels;
  --Essential investment in projects to continue the transformation of 
        the Federal Depository Library Program to a predominately 
        electronic basis, by improving the cataloging, preservation, 
        authentication, and provision of public access to electronic 
        Federal Government information; and
  --Investment in information technology to improve the efficiency and 
        effectiveness of GPO's operations, and completion of the 
        program we have begun to retrain GPO's workforce to meet 
        changing technology demands.
    Congressional Printing and Binding.--For the Congressional Printing 
and Binding Appropriation, which covers printing and related services 
for Congress, we are requesting $100,285,000. This is an increase of 
$13,076,000 over the level provided for fiscal year 2006. As you know, 
the funding level provided for this appropriation in fiscal year 2006 
is equal to fiscal year 2005, minus the one percent rescission. The 
increase is required to cover mandatory pay and price level changes and 
projected changes in specific congressional printing categories based 
on historical data, and is partially offset by ongoing improvements in 
productivity. Mandatory items include funding for the production of the 
2006 Edition of the U.S. Code, which by law is fully updated and issued 
every six years by the Office of the Law Revision Counsel, as well as 
required support capabilities residing at the alternative computing 
facility. Our request also provides funding to begin investment in a 
new generation of publishing systems that will be capable of fully 
supporting Congress's current and future information product needs.
    Salaries and Expenses Appropriation.--For the Salaries and Expenses 
Appropriation of the Superintendent of Documents, we are requesting 
$43,000,000, an increase of $9,996,000 over the level provided for 
fiscal year 2006. This appropriation provides for the cataloging, 
indexing, and distribution of Government publications to Federal 
Depository and International Exchange libraries and other recipients 
designated by law.
    The increase is necessary for mandatory pay and price level 
changes, increased information technology support costs, and 
distribution of the 2006 edition of the U.S. Code to depository 
libraries and other recipients as required by law. Equally as 
important, our request includes funding for essential investments to 
sustain our commitment to meeting the changing needs of the Federal 
Depository Library Program (FDLP) in the digital era. For fiscal year 
2005, 71 percent of all new titles made available to the FDLP were in 
online format only, while an additional 21 percent of new titles were 
in electronic and one or more tangible formats such as print or 
microfiche. Only 8 percent of new were made available in print only. In 
other words, 92 percent of new titles in the program were made 
available online, whether or not there were tangible equivalents.
    As this data shows, the FDLP is now a predominately electronic 
program. The funding increase we are seeking will nurture and sustain 
the digital transformation of the FDLP, expanding the availability of 
the program's resources nationwide while providing for essential 
improvements to ensure permanent access and authenticity. The projects 
we are proposing include digital conversion of GPO's pre-1976 
cataloging records to expand the availability of our online catalog 
resource; targeted capital investment for authentication and other 
technologies supporting GPO Access; authentication and cataloging of 
Web-harvested documents; and essential training for depository 
librarians and other user support.
    Our request is also designed to advance another key initiative of 
our strategic vision for the future. In cooperation with the Library of 
Congress and the National Archives and Records Administration (NARA), 
we are developing an agreement under which the three agencies will make 
a concerted effort to digitize and provide online public access to 
Federal documents reaching back to the Nation's earliest days. As a 
result of this effort, the comprehensive historical collection of 
Federal publications--reports, legislation, congressional proceedings, 
executive orders, presidential papers, regulations, and more--will be 
available for search and retrieval at the push of a button from any 
library, classroom, office, or home. We are now involved in a 
demonstration project for legacy digitization.
    As our society becomes increasingly electronic, the demand for 
access to Government information--including information that until now 
has been available only in print--is growing. Several elements of both 
the public and private sectors have begun to respond to need for 
retrospective digitization to meet that demand and reduce costs to 
libraries. These efforts are commendable, but with their proliferation 
there is a growing need for an approach that will ensure 
standardization, comprehensiveness, and efficiency while preventing 
wasteful overlap and duplication of effort. I have met on this subject 
with the Librarian of Congress and the Archivist of the United States 
and we expect to conclude an agreement on this effort in the near 
future. While GPO will fund its role in this effort from available 
resources, our request for fiscal year 2007 includes $2 million to 
provide data tagging and related technical support for newly digitized 
content that is made available to the FDLP.
    Revolving Fund.--For GPO's revolving fund, we are requesting an 
appropriation of $8,231,000, an increase of $6,251,000 over the level 
provided for fiscal year 2006.
    This will provide funds to acquire essential information technology 
infrastructure and systems development, including risk reduction and 
security enhancements, computer-aided manufacturing, replacement of our 
antiquated job-cost reporting system, implementation of a Government 
Performance and Results Act (GPRA) compliance system, and other 
measures. Our request will also be used to complete the training 
program we have initiated with fiscal year 2006 funds to define GPO's 
workforce needs, assess the skills of current employees, identify the 
gaps, and design and deliver targeted, just-in-time training to close 
those gaps. A well-trained workforce and modernized information 
technology architecture are prerequisites to implementing our vision of 
GPO's digital future.
    Mr. Chairman and Members of the Subcommittee on Legislative Branch 
Appropriations, thank you for all the support you have shown for our 
efforts to transform GPO. With your support we can continue our record 
of achievement. We look forward to working with you in your review and 
consideration of our request.

                          FACILITY RELOCATION

    Senator Allard. Well, thank you for your testimony, Mr. 
James. We have just a few questions here.
    It appears that your plans to move the Government Printing 
Office out of the current facility are not moving along quite 
as expeditiously as you would like. If the Government Printing 
Office is unable to relocate in the near future, how will that 
impact the Government Printing Office's plans to further 
modernize its operations?
    Mr. James. Well, we are not going to let a building stop 
us. I mean, the Government Printing Office is not about a 
building. It is about systems and people. And so we are not 
about to let a building stop us. But I think this is maybe even 
more personal to me as the leader of the GPO. It just to me is 
a travesty to allow taxpayer money to be flushed down the drain 
the way we are doing this.
    I mean, we can do a better job. And that is what I have 
been working at, to try and give the taxpayers a better deal on 
this. And I know that you have, too. This subcommittee and the 
House Appropriations Committee have been working with us all 
the way along on trying to get this done, too.

                             TOP CHALLENGES

    Senator Allard. What are the top challenges that you face 
or the Government Printing Office faces? And what advice would 
you provide for your successor?
    Mr. James. Well, I think the things I've talked about today 
are the remaining big challenges in front of the Government 
Printing Office. The most important things, I think, that I 
have done over the last almost 4 years are to make certain we 
had the right people in the right positions and then to help 
them to develop a long-term strategy that would serve the 
American public and serve Congress, and then to help get that 
program off and going. And we are there.
    The remaining big challenges include the redevelopment of 
the building. And, you know, it is not just a matter of getting 
congressional approval to proceed. Once we have that approval, 
there is a big challenge of finding a new location for the GPO 
and hiring an architect and building a building and equipping 
that building. So that is probably the largest challenge.
    And I think that everything surrounding digital information 
is the other challenge. I think Mike Wash and his team are 
doing a superb job of building the system, but it will require 
continual attention and strict attention to make sure it is 
successful.

                           BUDGET PRIORITIES

    Senator Allard. Given the budget constraints we are faced 
with, it is unlikely that we are going to be able to come up 
with a 24-percent increase. It will probably be something less 
than that. And as I have asked of all the other agencies, I 
hope you can give us a prioritized list, because that would be 
very helpful as we negotiate with the House on this, if we know 
which things are most important to you. I would hate to think 
that in the negotiating process we gave up the most valuable 
for something of less importance.
    Mr. James. Sure.
    Senator Allard. So it would help us to make sure that your 
agency gets its badly needed resources in the proper priority.
    Mr. James. We would be pleased to do that. And I think we 
have a good relationship with staff and would be pleased to 
work with them and help them understand the priorities.
    Senator Allard. If you could do that, for the record, we 
would appreciate it.
    Mr. James. Yes, sir, be happy to.
    [The information follows:]
             GPO Fiscal Year 2007 Appropriations Priorities
                   congressional printing and binding

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Fiscal year 2006 Enacted Level.............................        $87.2
Fiscal Year 2007 Requested Level...........................        100.3
                                                            ------------
      Total Increase Originally Requested..................         13.1
------------------------------------------------------------------------

    Approximately $12.1 million is needed for essential requirements, 
including funding for mandatory pay and price changes to cover 
contractual wage agreements and inflation, an adjustment to the fiscal 
year 2006 base to cover a projected shortfall for fiscal year 2006 
(which will be funded from unexpended balances of prior year 
appropriations transferred to the revolving fund last year), 
anticipated workload increases in several congressional printing 
categories based on projections from historical data, and the 
production of official and bylaw copies of the 2006 edition of the U.S. 
Code in accordance with statutory requirements.
    Additional requirements of $1 million include funding for a planned 
replacement of GPO's Microcomp composition system, which will require 
the approval of the Joint Committee on Printing.

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Essential Requirements:
    Mandatory pay and price changes........................         $2.3
    Adjustment to fiscal year 2006 base....................          1.4
    Anticipated workload increases.........................          3.7
    Production of 2006 U.S. Code...........................          4.7
                                                            ------------
      Total................................................         12.1
                                                            ============
Additional Requirements: Microcomp replacement.............          1.0
------------------------------------------------------------------------

                         salaries and expenses

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Fiscal Year 2006 Enacted Level.............................        $33.0
Fiscal Year 2007 Requested Level...........................         43.0
                                                            ------------
      Total Increase Originally Requested..................         10.0
------------------------------------------------------------------------

    With the exception of the mandatory pay increases and the printing 
and distribution of copies of the 2006 edition of the U.S. Code to 
depository libraries, GPO's requested increase of approximately $10 
million covers projects directly related to the broad range of 
information life-cycle activities required by the congressionally-
mandated transition to a primarily electronic Federal Depository 
Library Program (FDLP) and to building the infrastructure to support 
it. Because these activities are interrelated and support each other, 
GPO must proceed with multiple priorities to meet Title 44 mandates in 
the online information environment.
    If funding at the originally requested level is not an option, GPO 
will scale back digital initiatives or slow down progress on the 
electronic transition rather than pursue one or two priorities to the 
exclusion of others. Elimination or more substantial reduction of any 
of these activities through funding prioritization will necessitate 
consultation with the depository library community.
    If appropriations cuts are required GPO could still support its 
mission with essential requirements totaling approximately $7.1 
million, a 29 percent reduction from the initial request for the 
Salaries and Expenses Appropriation. These requirements include 
mandatory pay and related costs, printing and distribution of the 2006 
edition of the U.S. Code for depository libraries, expenses due to 
investment in IT and GPO's Future Digital System (FDsys), FDLP training 
and user support of FDsys (with funding reduced by 20 percent, or 
$265,000, from the original request), conversion of pre-1976 cataloging 
records (with funding reduced by 63 percent, or $500,000; 
implementation of this project will be modified from a single multi-
year contract to multiple single-year contracts, with requests for 
funding to be made in subsequent years), cataloging of web-harvested 
documents (with funding reduced by 10 percent, or $63,000), 
authentication of web-harvested and digitized documents (with funding 
reduced by 10 percent, or $45,000), and capital expenses associated 
with authentication and access.
    Additional requirements shown below total approximately $2.9 
million. They include funds for data tagging and processing new 
digitized content for access (while a demonstration project for legacy 
digitization has been authorized by the Joint Committee on Printing, 
GPO does not yet have authorization for the full legacy digitization 
project, and if not provided for fiscal year 2007, funding could be 
requested in subsequent years once the project is approved), as well as 
restoration of the reductions shown above for FDLP training and user 
support for FDsys, conversion of pre-1976 cataloging records, 
cataloging of web-harvested documents, authentication of web-harvested 
and digitized documents, and capital expenses associated with 
authentication and access.

------------------------------------------------------------------------
                                                            In millions
------------------------------------------------------------------------
Essential Requirements:
    Mandatory pay and related costs.....................           $0.8
    U.S. Code 2006 edition, printing and distribution...            2.0
    Expenses due to investment in IT and FDsys..........            1.2
    FDLP training and user support of FDsys.............            1.1
    Conversion of pre-1976 cataloging records...........             .3
    Cataloging of web-harvested documents...............             .6
    Authentication of web-harvested and digitized                    .4
     documents..........................................
    Capital expenses associated with authentication and              .7
     access.............................................
                                                         ---------------
      Total.............................................            7.1
                                                         ===============
Additional Requirements:
    FDLP training and user support of FDsys.............             .3
    Conversion of pre-1976 cataloging records...........             .5
    Cataloging of web-harvested documents...............             .05
    Authentication of web-harvested and digitized                    .05
     documents..........................................
    Data tagging and processing new digitized content               2.0
     for access.........................................
                                                         ---------------
      Total.............................................            2.9
------------------------------------------------------------------------

                             revolving fund

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Fiscal Year 2006 Enacted Level.............................         $2.0
Fiscal Year 2007 Requested Level (Fiscal year 2007 request           8.2
 is a total of $3 million for training and $5.2 million for
 IT projects; fiscal year 2006 enacted provided $2 million
 for training).............................................
                                                            ------------
      Total Increase Originally Requested..................          6.2
------------------------------------------------------------------------

    Of the requested increase, approximately $1.0 million is needed for 
essential requirements, which represents an increase over the funds 
provided for fiscal year 2006 for workforce training and development to 
provide GPO employees with the skills needed for GPO's digital future. 
Total funds approved for fiscal year 2006 for training were $2 million; 
GPO is requesting a total of $3 million for training for fiscal year 
2007.
    Additional requirements of $5.2 million are requested for high risk 
infrastructure replacement to cover 8 projects to mitigate high 
technical risk areas, a secure documents system infrastructure to 
provide IT support for GPO's secure and intelligent documents business 
unit, a computer-aided manufacturing system to integrate GPO's 
production systems with IT monitoring, replacement of GPO's outdated 
PROBE system that provides job cost tracking, an application 
infrastructure to integrate GPO business systems into Oracle, a 
Government Performance and Results Act (GPRA) compliance system to 
monitor and evaluate program performance, and a metadata repository to 
standardize data used in GPO's business systems.

------------------------------------------------------------------------
                                                             In millions
------------------------------------------------------------------------
Essential Requirements: Workforce retraining...............         $1.0
                                                            ============
Additional Requirements:
    High risk infrastructure replacement...................          2.3
    Secure documents system infrastructure.................           .8
    Computer-aided manufacturing...........................           .5
    PROBE replacement......................................           .5
    Oracle application infrastructure......................           .5
    GPRA compliance system and implementation..............           .3
    Metadata repository....................................           .3
                                                            ------------
      Total................................................          5.2
------------------------------------------------------------------------

                          EMPLOYEE RETRAINING

    Senator Allard. Now Congress approved $2 million in the 
Government Printing Office 2006 budget for workforce training. 
Can you update us on your efforts on that?
    Mr. James. You want to know how we spent that money?
    Senator Allard. Yes. We want to know what the results are.
    Mr. James. I would like to submit the specifics for the 
record. But I will give you sort of a general view of what we 
have done with this.
    In my judgment, the most important thing was to make 
certain our 330 supervisors are completely trained in what 
being a supervisor is all about. In the past, we moved people 
from the workforce that were skilled craftsmen just almost 
based on seniority into these, what I call, these leadership 
positions without sufficient background and training of what it 
takes to be a leader.
    So the first thing we did was focus on helping all of our 
roughly 330 supervisors/leaders to understand their 
responsibilities and what they need to do in a digital world 
and actually in a world of today. And we used the strategic 
vision document as the working tool of how to get them to 
understand what their role was and how to carry this down to 
employees.
    We then set up a new business unit that we call the digital 
media group. And this is the group that will do the conversion 
of the legacy documents of the Government into digital 
documents. And this will create hands-on training for hopefully 
several hundred GPO employees over the next few years as we 
complete that digitization. So those are the big initiatives 
that were undertaken in the last year. But I will give you a 
full explanation of that for the record.
    Senator Allard. Thank you.

                       Use of GPO Training Funds

    For fiscal year 2006, Congress appropriated $1.9 million 
(after rescission) to GPO's revolving fund for workforce 
development and training.
    Approximately $500,000 has been allocated to a 
demonstration project for the digitization of selected legacy 
Government documents that has been approved by the Joint 
Committee on Printing. The project will train a targeted 
element of GPO's workforce in essential digitization skills.
    Approximately $100,000 has been allocated to the provision 
of training in PC skills, electronic publishing, new pre-press 
technologies, customer service improvement, and apprentice 
training.
    The balance of the funds are for a GPO-wide skills 
assessment and implementation of retraining and include the 
following: $170,000 for a needs analysis and skills assessment, 
$630,000 for classroom training, $270,000 for e-training, 
$130,000 for a Learning Management System, and $100,000 for 
career transition services.

                      ELECTRONIC PASSPORT PROGRAM

    Senator Allard. What is the status of the electronic 
passport program that you are working on with the State 
Department?
    Mr. James. That is one of the most challenging jobs that we 
have had. The State Department is one of our best customers. 
And as you know, this is a program that has been mandated by 
Congress. And that is to include a biometric chip in all of the 
U.S. passports. And the law is requiring that of other 
countries, too, that want to have the visa exemption.
    We have been working for about 2 years on that program with 
the State Department. We actually have working samples out in 
the field right now. We are delivering official passports. I 
believe in the last couple of weeks, we started delivering 
official passports with chips and antennas. We have learned a 
lot in this process. We probably have more knowledge than 
perhaps any other organization in the country at this point 
about what goes into dealing with these chips in a paper 
product.
    As a matter of fact, we have learned so much that we are 
looking at sharing this with other agencies to meet some of 
their requirements, both for ID cards and for other kinds of 
secure and intelligent documents that the Government will need. 
I have come to the conclusion that I think the Government 
Printing Office can be of great service to other agencies in 
the development and maintaining of a proprietary Government 
technology that will help ensure that documents cannot be 
counterfeited and they are authentic documents.
    We are looking at doing this with some interesting models. 
We are looking at getting in the business of producing ID 
cards.
    Senator Allard. What kind of ID cards?
    Mr. James. These are the new ID cards that are required 
that have RFD devices in them that will be for all agency 
employees. And there we are looking at the possibility of doing 
a Government-owned, contractor-operated plant within GPO 
facilities. In other words, taking the best advantage of the 
private sector and their know-how and how to officially 
manufacture, but yet keeping it within a Government facility 
for the necessary security protections.
    So we have learned at lot. We have made great progress. I 
think this will be one of the fast-growing areas in the future 
for the Government Printing Office.
    Senator Allard. So you actually have it in some passports 
now.
    Mr. James. Yes, we do.
    Senator Allard. Is that part of the trial basis, or is this 
now just part of routine procedure in those few that you have 
out there?
    Mr. James. I think you are asking me to speak for my 
customer here, the State Department, on this. And it is my 
impression that we are still moving cautiously. You know, with 
old U.S. passports, I should say the former passports, we knew 
what would happen if somebody left it in the trunk of their car 
or ran it through a washing machine. You know, we need more 
experience here in what happens in the real world as people use 
these devices or these passports, so that we can make certain 
that the manufacturing techniques we have used will withstand 
as much as they possibly can. So we are moving cautiously on 
this one.

                FUTURE OF THE DEPOSITORY LIBRARY PROGRAM

    Senator Allard. Thank you. You also said you are engaging 
the depository library community in a dialogue on the future of 
the depository library system. What is the status of that 
effort?
    Mr. James. Well, let me put it this way. I think that 
together the library community and the GPO have come a long way 
in the last 3 years. I began to discuss with the depositories a 
little over 3 years ago what I thought was going to be required 
in the digital future. And there were, I think it is fair to 
say, some real skeptics initially.
    But as we have, over the last 3 years, worked so closely 
together on taking a look at this, I think that probably it is 
best summed up by a letter I think you recently received, 
signed by the presidents of the five largest library 
associations strongly endorsing the direction that we are 
going. And I think that while we do not have a complete 
solution yet, I think we are engaged in a very positive way. We 
know we cannot please everybody. But it is our intention to get 
to the point that we have a consensus within the community of 
the best way to go forward with this.
    Senator Allard. So you are in the discussion process right 
now.
    Mr. James. Yes, sir.
    Senator Allard. And you have not decided exactly how you 
are going to proceed from this point.
    Mr. James. That is absolutely correct.
    Senator Allard. Thank you. That is all I need for your 
testimony. Thank you very much.
    Mr. James. Thank you, Mr. Chairman.
    Senator Allard. We wish you well.
    Mr. James. Thank you.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DR. DONALD B. MARRON, ACTING DIRECTOR
    Senator Allard. Good morning, Dr. Marron. We meet again 
today. It seems like we have been seeing each other on a fairly 
regular basis here. You are the last panel for this morning. I 
would ask that you, Dr. Marron, Acting Director of CBO, to 
present your testimony on CBO's $37 million request. This is a 
5.5-percent increase over fiscal year 2006 and supports current 
services.
    Now, Dr. Marron, we understand you have done an excellent 
job heading up the CBO since your appointment just a few months 
ago. And we appreciate your service. Please go ahead with your 
testimony.
    Dr. Marron. Thank you, Mr. Chairman. It is a pleasure to be 
here today. You have our written statement, so I will try to be 
very brief. Let me start by thanking you for your past support 
of CBO's budget request, most recently for the 2006 request.
    As you know, CBO's mission is to provide the Congress with 
timely, objective, nonpartisan information about budget and 
economic issues. It has been my great privilege to be with the 
agency for about 6 months now and to be Acting Director since 
early this year. And just on a personal note I would like to 
say I am just incredibly impressed with the enthusiasm and 
skill and esprit de corps of the CBO and its people. I feel 
like we are doing an excellent job for the Congress. And I hope 
to keep that up.
    As you say, our fiscal 2007 request is for $37 million, 
which would be an increase of $1.9 million over our 
appropriation for 2006. It is an increase of 5.5 percent. This 
is pretty much a plain vanilla request on our part. There are 
no new initiatives. We view it as a current services budget. It 
allows us to maintain a level of productivity, allows us to 
maintain our 235 FTEs, and hopefully allows us to, you know, 
continue the productivity that we have built up in recent 
years. Hopefully, it is well documented in our submission.
    Our budget is overwhelmingly for people. As we discussed 
the other day, about 90 percent of the budget goes toward our 
people. And in essence, that is what is driving our budget 
request this year. Most of the request is concentrated in 
people, both because of benefit increases, because of a cost of 
living adjustment (COLA), and because of merit increases that 
we would expect to award to people.
    In addition, there is a component in there for IT. As you 
will recall, last year there was an across-the-board 
rescission. We, to get through this year, focused most of that 
on our IT budget. We deferred a variety of projects. And so our 
budget request in essence has a variety of those investments 
coming back in 2007 being funded.
    I am happy to say that I believe CBO provides good value to 
the Congress and through the Congress to the American people. 
It has been true in the past, and we intend to make sure it is 
true in the future.

                           PREPARED STATEMENT

    And with that, happy to take any questions.
    Senator Allard. Well, thank you, Dr. Marron.
    [The statement follows:]

                 Prepared Statement of Donald B. Marron

    Mr. Chairman and Members of the Committee, I am pleased to present 
the fiscal year 2007 budget request for the Congressional Budget Office 
(CBO).
    CBO is a small legislative support agency. Its mission is to 
provide the Congress with timely, objective, nonpartisan analyses of 
the budget and the economy and to furnish the information and cost 
estimates required for the Congressional budget process. That mission 
is its single ``program.'' Approximately 90 percent of CBO's 
appropriation is devoted to personnel, and the remaining 10 percent, to 
information technology, equipment, supplies, and other small purchases.
    The total current-services request for fiscal year 2007 is 
$37,026,000 a $1.9 million, or 5.5 percent, increase over the 
appropriation for fiscal year 2006 (after the 1 percent rescission). 
Although CBO's original projected increase from fiscal year 2006 to 
fiscal year 2007 was 4.4 percent, this request incorporates CBO's need 
to restore resources that were eliminated in fiscal year 2006 by the 
rescission.
    The requested increase is dominated by $1.7 million for increases 
in staff salaries and benefits, which are estimated to grow by 5.3 
percent in 2007. CBO's information technology accounts will increase by 
$220,000, or 15.6 percent, primarily to restore information technology 
funding that was reduced to meet the fiscal year 2006 rescission. The 
remainder of CBO's nonpersonnel budget will increase by 1.7 percent to 
cover modest inflationary increases in various accounts.
    With the requested funds for 2007, CBO plans to continue to support 
the Congress in exercising its responsibilities for the budget of the 
U.S. government. CBO supports the Congressional budget process by 
providing analyses required by law or requested by the Committees on 
the Budget, the Committees on Appropriations, the Senate Committee on 
Finance, the House Committee on Ways and Means, other committees, and 
individual Members. Contributing in various forms, CBO:
  --Reports on the outlook for the budget and the economy to help the 
        Congress prepare for the legislative year, including the 
        construction of baseline budget projections to serve as neutral 
        benchmarks for gauging the effects of spending and revenue 
        proposals;
  --Estimates the effects of the President's budgetary proposals on 
        outlays and revenues, including effects resulting from impacts 
        on macroeconomic activity;
  --Assists the Committees on the Budget in developing the 
        Congressional budget resolution by providing alternative 
        spending and revenue paths and the estimated effects of a 
        variety of budget options;
  --Reports on programs and activities for which authorizations for 
        appropriations were not enacted or are scheduled to expire;
  --Estimates the costs of legislative proposals, including formal cost 
        estimates for bills reported by committees of the House and 
        Senate, which also identify the costs of mandates on states, 
        localities, Indian Tribes, and the private sector;
  --Conducts policy studies of governmental activities having major 
        economic and budgetary impacts;
  --Provides the Congress with analyses of policy options, but not 
        policy recommendations, to alter federal outlays and receipts 
        in the near term and over the longer horizon to help the 
        Congress make budgetary choices, set priorities, and adapt to 
        changes in circumstances;
  --Constructs statistical, behavioral, and computational models to 
        project short- and long-term costs and revenues of government 
        programs and their effects on the economy; and
  --Reports on emerging economic developments (such as natural 
        disasters) and their possible budgetary consequences.
    In fiscal year 2007, CBO's request will allow the agency to build 
on current efforts specifically, the request:
  --Supports a workload of more than 1,700 formal estimates of the 
        costs of proposed or enacted legislation and of mandates 
        included in legislation (generally conveyed in about 600 
        separate documents) and approximately 160 analytical reports 
        and other products, as well as a heavy schedule of 
        Congressional testimony;
  --Supports 235 FTEs, the same number as in 2006, including an across-
        the-board pay adjustment of 2.7 percent for staff earning a 
        salary of less than $100,000 (which is consistent with the pay 
        adjustment requested by other legislative branch agencies);
  --Funds a projected 5.4 percent increase in the cost of benefits and 
        funds a combination of promotions and merit increases, 
        including pay adjustments for staff whose salary exceeds 
        $100,000 and who therefore do not receive an automatic annual 
        increase;
  --Supports CBO's share of the Federal Accounting Standards Advisory 
        Board (FASAB) budget requirement ($443,025);
  --Sustains management and professional training and development 
        ($152,400);
  --Maintains and continues development of CBO's financial management 
        system ($101,390);
  --Supports the agency's telecommunications services to the Alternate 
        Computing Facility ($75,000); and
  --Allows for upgrading Microsoft Office software throughout the 
        agency ($75,000).
    Before I close, I would like to point out that over the past two 
fiscal years, CBO has streamlined operations while increasing services 
to the Congress and meeting ever growing requirements. Those efforts, 
which have included working in cooperation with other legislative 
branch agencies and other government organizations, have focused on 
reducing costs in information technology; library operations; printing 
and reproduction; storage services; and financial management, including 
payroll processing, auditing, and reporting. Consequently, the fiscal 
year 2007 submission requests the funding required for CBO to maintain 
its current services.
    I would also like to report that CBO received a clean opinion on 
its fiscal year 2004 financial statements.
    In addition, I would like to state that the agency is committed to 
applying many principles of the Government Performance Results Act as 
discussed in the Senate's fiscal year 2006 report.
    Finally, I would like to thank the Committee for its support of 
CBO's 2006 budget request. The funding provided this year will allow 
CBO to continue to provide the Congress with vital analyses as well as 
enable the agency to make cost-effective investments to enhance 
productivity and reduce costs.

                   PREPARATION OF REPORTS TO CONGRESS

    Senator Allard. Now, in the past 2 years, CBO has increased 
the number and reduced the preparation time of reports for the 
Congress. That is admirable. Would you explain to the 
subcommittee how you managed to accomplish that?
    Dr. Marron. Absolutely. I would say the key to that really 
is good management, to establishing timelines, deadlines, and 
encouraging folks to meet those. There are always some 
slippages, but, you know, to have guideposts for people to 
strive for, and then also to have a culture in which we make a 
lot of effort up front to make sure that the projects that we 
choose to undertake are ones that we can get through the entire 
process to see the light of day, to make sure that we have 
requests whenever possible from Members of Congress, and then 
just to carry that forward.
    So, I would ascribe that essentially to good management.

                         ONE PERCENT RESCISSION

    Senator Allard. Now in fiscal year 2006, a 1-percent 
rescission was applied to all the agencies. The one exception 
would have been the Department of Veterans Affairs. What was 
the impact of that reduction on your activities?
    Dr. Marron. The primary impact on us was to defer a variety 
of information technology investments, upgrading servers, 
upgrading PCs. Some of those have some flexibility in the 
timing of those. And we decided to put them out of this year 
and push them into next year.
    Senator Allard. And that is reflected in this year's 
budget?
    Dr. Marron. Exactly right. You will see that there is a 
larger percentage increase in the IT budget, somewhere in the 
11-percent range--and a significant part of that increase is 
essentially those investments showing up in 2007.

                BUDGETARY ANALYSIS OF DRAFT LEGISLATION

    Senator Allard. I see. Now I understand CBO has had a draft 
of Senator Lott's legislation to redevelop the Government 
Printing Office facility since December. We had a discussion 
about that in the panel before you. As I understand it, until 
the bill is scored, Senator Lott is reluctant to move forward. 
What is the status of your efforts to provide a budgetary 
analysis of this draft legislation to the Rules Committee?
    Dr. Marron. Our people are definitely working on it. The 
proposal raises some challenging issues which raise some nuance 
scoring issues, but we are working to expedite and it should be 
available quite soon.
    Senator Allard. I would urge you move ahead with that. Is 
it possible for you to give us a commitment on a date?
    Dr. Marron. I cannot right now, but let me check with my 
folks back in the office, and I will get back to you.
    Senator Allard. Okay. I think it is important for us to get 
the Government Printing Office issue settled as fast as we 
possibly can. If you can get that to us quickly, we would all 
appreciate it.
    Dr. Marron. Okay. Absolutely.

                         CONCLUSION OF HEARINGS

    Senator Allard. Very good. I do not have any other 
questions. You got off kind of easy.
    Dr. Marron. So I will thank you for that.
    Senator Allard. Thank you for your testimony.
    And this subcommittee stands in recess.
    [Whereupon, at 11:45 a.m., Wednesday, May 3, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
